<html>
<title> - THE TRIAD: PROMOTING A SYSTEM OF SHARED RESPONSIBILITY. ISSUES FOR REAUTHORIZATION OF THE HIGHER EDUCATION ACT</title>
<body><pre>[Senate Hearing 113-815]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 113-815

  THE TRIAD: PROMOTING A SYSTEM OF SHARED RESPONSIBILITY. ISSUES FOR 
              REAUTHORIZATION OF THE HIGHER EDUCATION ACT

=======================================================================

                                 HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

  EXAMINING PROMOTING A SYSTEM OF SHARED RESPONSIBILITY, FOCUSING ON 
         ISSUES FOR REAUTHORIZATION OF THE HIGHER EDUCATION ACT

                               __________

                           SEPTEMBER 19, 2013

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                          U.S. GOVERNMENT PUBLISHING OFFICE
21-432 PDF                         WASHINGTON : 2016                          
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4126312e012234323529242d316f222e2c6f">[email&#160;protected]</a>  





          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland
PATTY MURRAY, Washington
BERNARD SANDERS (I), Vermont
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado
SHELDON WHITEHOUSE, Rhode Island
TAMMY BALDWIN, Wisconsin
CHRISTOPHER S. MURPHY, Connecticut
ELIZABETH WARREN, Massachusetts

                                     LAMAR ALEXANDER, Tennessee
                                     MICHAEL B. ENZI, Wyoming
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     RAND PAUL, Kentucky
                                     ORRIN G. HATCH, Utah
                                     PAT ROBERTS, Kansas
                                     LISA MURKOWSKI, Alaska
                                     MARK KIRK, Illinois
                                     TIM SCOTT, South Carolina
                                       

                    Pamela J. Smith, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                  (ii)

  

                            C O N T E N T S

                               __________

                               STATEMENTS

                      THURSDAY, SEPTEMBER 19, 2013

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     3
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................     6
    Prepared statement...........................................     7
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    38
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    40
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..    42
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina.......................................................    44
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    46
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    48

                               Witnesses

Lingenfelter, Paul E., Ph.D., Former President, State Higher 
  Education Executive Officers Association, Boulder, CO..........     9
    Prepared statement...........................................    10
Hartle, Terry W., Ph.D., Senior Vice President, American Council 
  on Education, Washington, DC...................................    17
    Prepared statement...........................................    18
Phillips, Susan D., Ph.D., Provost and Vice President for 
  Academics Affairs, University at Albany, SUNY, Albany, NY......    22
    Prepared statement...........................................    24
Hill, Marshall A., Ph.D., Executive Director, National Council 
  for State Authorization Reciprocity Agreements, Boulder, CO....    28
    Prepared statement...........................................    31

                          ADDITIONAL MATERIAL

Response by Paul Lingenfelter, Ph.D to questions of Senators:
    Senator Murray...............................................    58
    Senator Whitehouse...........................................    59
Response by Terry W. Hartle, Ph.D to questions of Senators:
    Senator Murray...............................................    61
    Senator Whitehouse...........................................    61
Response by Marshall A. Hill, Ph.D to questions of Senators:
    Senator Murray...............................................    63
    Senator Whitehouse...........................................    64

                                 (iii)

  

 
  THE TRIAD: PROMOTING A SYSTEM OF SHARED RESPONSIBILITY. ISSUES FOR 
              REAUTHORIZATION OF THE HIGHER EDUCATION ACT

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2013

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m. in 
room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Hagan, Franken, Bennet, 
Whitehouse, Baldwin, Murphy, Warren, Alexander, and Scott.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will come to order.
    Again, my apologies to everyone for being late; it is my 
fault. There just seems to be a lot of things happening around 
here that interfere with our schedules.
    Today's hearing marks the kickoff of the reauthorization 
process of the Higher Education Act here in the Senate. In 
consultation with Senator Alexander and his staff, our staff 
will work together to arrange and set up a series of 12 
hearings, over the coming months, to analyze the many aspects 
of our higher education system and how it can be improved.
    These hearings will range from a more in-depth analysis of 
what we are all here to discuss today--the role States, 
accreditors, and the Federal Government play in our higher 
education system--to examining ways to increase the quality of 
higher education without sacrificing access for students.
    We will have hearings on innovative approaches to improving 
students' success, improving and streamlining the student 
financial aid process, as well as looking at our teacher 
preparation programs and examining whether they are producing 
the teaching force we need for the many reforms already 
underway in the K through 12 education system.
    As the committee's focus on college affordability, and the 
debate surrounding interest rates on student loans over the 
past 2 years have shown, there is a strong interest in taking a 
close look at postsecondary education. We have a great deal to 
discuss.
    The Higher Education Act, as we know, was first passed in 
1965 and,

          ``To strengthen the educational resources of our 
        colleges and universities, and to provide financial 
        assistance for students in postsecondary and higher 
        education.''

    Forty-eight years and nine reauthorizations later, the 
landscape of higher education has changed, but that focus has 
stayed constant.
    We will now take a fresh eye to the laws on the books in 
light of new challenges that need to be addressed including 
rising college costs, meeting the needs of an increasingly 
diverse and nontraditional student body, exploring changes in 
the delivery of coursework and, of course, assuring quality 
overall.
    As we approach this reauthorization of the Higher Education 
Act, it is with the knowledge that many believe the United 
States has a world-class higher education system. Yet, many 
low-income and middle-class families across the country 
question whether this higher education system is really working 
for them. What has historically been the pathway to the middle 
class is now being called into question. We all need to take a 
tough look at re-imaging how this system can work better.
    Today, as we start this series, we will examine a core 
issue of higher education, the triad: the term used to describe 
the Federal system of oversight and accountability in higher 
education. As our witnesses will note in their testimonies, 
this system and the roles of its key players--the States, the 
accrediting agencies, and the Federal Government--have been 
pieced together over the decades. Each player has been tasked 
to perform certain duties when recognizing an institution of 
higher education's eligibility to enroll students receiving 
Federal financial aid.
    Historically, accrediting agencies have been tasked with 
providing educational quality assurance, States have been 
tasked with consumer protection, and the Federal Government 
with oversight of compliance. In many ways, this interplay is 
what has separated our system from the rest of the world.
    This hearing gives us a much-needed opportunity to take a 
step back, re-examine the system as a whole, and determine 
whether it is up to the task of overseeing higher education, 
both today and tomorrow. I have raised serious concerns in past 
committee hearings about the ability of the triad to 
effectively monitor a rapidly changing higher education 
landscape.
    In recent years, we have seen countless examples of 
students and taxpayers shouldering the burden and consequences 
of poor oversight. As gatekeepers of tax dollars, we have a 
responsibility--and when I say ``we,'' I mean States, 
accreditors, and the Federal Government--to ensure that the 
Federal investment in higher education is sound. The triad was 
developed to perform that responsibility and that is its sole 
function.
    We will have future hearings on each piece of this triad, 
but today, we examine its overall function. Does each leg 
understand its responsibility to the other two? Does each leg 
have the capacity to perform the task it has been given? 
Perhaps the most important question of all is: where does the 
buck stop?
    It has not gone unnoticed that in a triangular structure, 
each player has the ability to point their finger at someone 
else, but this is an outcome we cannot accept. It is not the 
time to defend the status quo. So, we are not asking these 
questions in a vacuum.
    Over the past two decades, we have seen policy decisions 
that have both strengthened and weakened the system's ability 
to effectively oversee taxpayers' dollars. I think many would 
agree that if we wipe the slate clean today and drew up a new 
system from scratch, maybe the triad would not be what we would 
create, yet, it is the system that we have. I hope today we can 
take a pragmatic look at it, and delineate what is strong and 
what is weak. I look forward to today's overall examination of 
the triad, its context within history, and whether or not it is 
the system that will take us into this new century.
    In closing, I will just say it is my hope this committee 
will produce a Higher Education Act bill, probably not this 
year, but in the early part of 2014. I certainly look forward 
to continuing to work on a bipartisan basis with our 
distinguished Ranking Member, Senator Alexander, of course, who 
has a very long and distinguished history of working on higher 
education issues. We are going to work together on this and dig 
into this in all aspects of it. But, today we will take just an 
overall look at this triad and how it is working.
    With that, I will invite Senator Alexander to give his 
opening remarks.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman.
    Before we begin, I do not know if it is appropriate to ask 
to put a photograph in the record, but if it is, I ask to put 
it in the record this photograph which demonstrates that our 
chairman may be retiring in a year or so or two, but he has not 
lost his agility.
    Here he is hula-hooping on top of a giant Chutes and 
Ladders game board on the east front of the Capitol. I ask 
permission to put just the picture in the record.
    The Chairman. I object.
    [Laughter.]
    Senator Alexander. I am impressed. It looked pretty good to 
me.
    And second, I thank Senator Harkin for having this series 
of hearings, and I want all to know, I intend to work closely 
with him in a bipartisan way to get a result. This is important 
to families, students, the future of our country. We have a 
good committee here. We ought to be able to do a good job on 
this, and I thank him for doing it, and I look forward to it.
    I would ask to put my entire statement in the record, if I 
may, Mr. Chairman, but I have asked him for permission to go 1 
or 2 minutes beyond the 5 minutes I usually do just because of 
the importance of this series of hearing that he has called.
    The American higher education system of today is like the 
American automobile industry of the 1970s. First, it offers a 
remarkable number of choices of the best products in the world 
at a reasonable cost. Second, it is not doing much about 
challenges that will require major adjustments if 20 years from 
now, it wants to be able to make the same claim.
    The United States does not just have some of the best 
universities in the world; it has almost all of them. One 
respected Chinese university ranked 36 American universities 
among the top 50; 8 among the top 10. Our research universities 
along with our national laboratories have been our secret 
weapon. They have been the key to developing competitive 
advantages that help our country produce nearly 25 percent of 
all the world's wealth.
    There are 6,000 higher education institutions in our 
country. Students may choose from Harvard or Nashville's Auto-
Diesel College, Yeshiva or Notre Dame, the University of 
Phoenix or the University of Maryland, Columbia State Community 
College in Tennessee to Morehouse College. There are plenty of 
choices that almost any student can afford.
    Three out of four students attend public institutions where 
the average tuition and fees are $8,600 for 4 years and $3,100 
for 2 years. Taxpayers heavily subsidize these opportunities. 
Nationally, States pay more than half of the cost of a public 
college education, and half of students have a Federal grant or 
loan to help pay for college.
    To use an example, at the University of Tennessee 
Knoxville, tuition and fees are $11,000 for new students 
because the State subsidizes the school. Any student with a 
``B'' average may receive up to $6,000 in a State HOPE 
scholarship. In addition, a low-income student may receive up 
to $5,600 more in Pell Grants. If more money is needed, the 
institution may provide its own scholarship, and there is a 
Federal loan available at 3.86 percent for all undergraduate 
students with interest paid by taxpayers for low-income 
students until the student graduates.
    If things are so good, why did Senator Harkin call these 
hearings? David Halberstam's book, ``The Reckoning,'' written 
in 1986 about the American automobile industry helps provide 
the answer. In the 1970s, according to Halberstam, the Big 
Three and the United Auto Workers became noncompetitive and 
sluggish. Halberstam called it an oligopoly. They agreed among 
themselves to make big, profitable cars while Europeans and 
Japanese were perfecting smaller, efficient cars. This 
eventually brought the American auto industry to its knees and 
for a time, jobs went overseas.
    When I became president of the University of Tennessee in 
1988, I asked David Gardner, the president of the University of 
California, why his campuses were among the best. He said,

          ``First, autonomy. The California legislature, 
        basically created four branches of Government and one 
        of them was a university, gave us a lot of freedom to 
        be as good as we could be. Second, competition and 
        choice. California scholarships and Federal grants and 
        loans followed students to the campuses of their 
        choice. Third, a commitment to excellence by the 
        faculty from the beginning.''

    I hope you will notice that Dr. Gardner's formula for 
success had nothing to do with orders from Washington or even 
from Sacramento.
    As we create an environment to help our 6,000 campuses to 
continue to provide the best choices in the world at a 
reasonable cost, I will insist that we remember his advice: 
autonomy, competition, choice, and excellence.
    We should focus on real problems, not imagined or 
politicized problems. For example, student loans are a problem, 
but 70 percent of Federal student loan borrowers have less than 
$25,000 in debt; 40 percent have less than $10,000 in debt for 
a degree that the College Board says will earn you $1 million 
more during your lifetime; that ought not to be a problem. What 
may be the problem is that certain students are borrowing more 
than they can ever afford to pay back and Federal laws do not 
allow colleges to say no to them. In other words, we in 
Washington are, at least, part of the problem.
    Per capita State aid to public education has dropped 
sharply, but most of that problem is not in the States. Again, 
it is mostly us. Washington's Medicaid mandates are soaking up 
the money Governors would like to spend on higher education 
which, in turn, keep tuition down. In the 1980s, Medicaid 
spending was 8 percent of the State budget in Tennessee; today, 
it is 26.
    We should be careful to resist the strange affliction that 
leads us to think Washington knows best. In fact, Dr. Gardner's 
formula for success is based upon the fact that in higher 
education, at least, Washington has done a pretty good job of 
keeping in mind it does not know best. As a result, we do not 
tell Harvard and Nashville Auto-Diesel College what its 
curriculum ought to be or what it should pay its faculty, what 
its tuition should be, or exactly what its researchers should 
study.
    Ever since the days of the GI bill in 1944, billions of 
dollars in grants and loans have followed students to the 
institutions of their choice, creating a true marketplace in 
which competition breeds excellence.
    As we move through these hearings, I would suggest we keep 
this in mind as we look for solutions: no price controls for 
tuition. No mandates about how to cut college cost. No 
prescriptive Washington definitions of ``quality.'' No 
Washington micromanagement of research priorities. Just because 
the President says the University of Tennessee is doing a good 
job at encouraging students to graduate in 4 years does not 
mean we should require all 6,000 institutions to do it exactly 
the same way. It means allowing campus boards to grapple with 
online universities and tuition levels rather than imposing 
more rules from here.
    The American automobile industry was fat and happy, and 
very reluctant to change until competition brought it to its 
knees. American higher education will be harder to change. Most 
of the oldest surviving institutions in the world are 
universities, but one of the greatest obstacles to innovation 
is us, the Federal Government.
    I voted against the Higher Education Act in 2008 because it 
would have added a stack of regulations as high as I am tall, 
and there was already one that tall. This stack of regulations 
is not the result of evildoers. It is simply the piling up of 
well-intentioned ideas and regulations imposed without taking 
time to weed the garden first.
    I have asked my staff to consider drafting a new Higher 
Education Act hopefully working with democratic members from 
scratch. Start all over, include everything that ought to be 
included, consider new regulations that ought to be written, 
not an ideological exercise; just a way to allow campuses to 
spend their money on students instead of regulations.
    Our goal should be to address how the Federal Government 
should create an environment in which 20 years from now, 6,000 
American colleges and universities can still offer the best 
higher education choices at a reasonable cost. As with the auto 
industry, there are clear signs of trouble.
    We are no longer leading the world in postsecondary 
completions. Fewer of our brightest international students are 
staying here after they graduate. Governors tell us that their 
biggest problem is a properly trained workforce. Colleges and 
universities continue to shutdown for the summer, leaving their 
buildings basically unused. There is a disturbing political 
correctness in the name of diversity in some places. The 
president of Stanford says that 7 cents of every dollar he 
spends go for regulation.
    The stakes are high. Just as the auto industry's decline 
sent jobs and profits overseas, a similar failure in U.S. 
higher education would damage our economy and send the best 
minds overseas. In a highly competitive world, there is no 
guarantee that we will continue to produce 25 percent of the 
world's wealth.
    The best way to avoid that fate, as we proceed through 
these hearings, is to keep in mind Dr. Gardner's words: 
autonomy, competition, choice, excellence--and I would add one 
more word--deregulation.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    We have a wonderful panel here to start off our series of 
hearings. I will introduce this panel.
    Our first witness is Dr. Paul Lingenfelter, and I will 
yield to Senator Bennet for purposes of introduction.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman.
    We are fortunate, today, to have two witnesses from 
Boulder. I will introduce one and the chairman is going to 
introduce the other.
    Before I offer my introduction, I want to take a moment to 
recognize the flood situation in Colorado which affected the 
area that these witnesses have come from, and I appreciate very 
much their managing to get here. Their dedication is a 
testament to the importance of this issue and to the great work 
going on in Colorado.
    With that, it is my great honor to introduce Dr. Paul 
Lingenfelter to the committee. Dr. Lingenfelter has served as 
the chief executive officer and president of the association of 
State Higher Education Executive Officers in Boulder, CO from 
2000 until this week. Founded in 1954, SHEEO advocates for 
State policy leadership and serves as an important liaison 
between States and the Federal Government for higher education. 
SHEEO also provides information and analysis on educational and 
public policy issues.
    During his time at SHEEO, Dr. Lingenfelter worked to 
increase successful participation in higher education, to 
increase accountability for improved learning, to increase the 
financing of higher education, and to build more effective 
relationships between K-12 and postsecondary educators in order 
to improve student success. He also spearheaded the 
organization of the National Commission on Accountability in 
Higher Education, created an annual study on the state of 
higher education finance, and expanded collaboration with the 
Council of Chief State School Officers.
    We welcome Dr. Lingenfelter, Dr. Hill as well, and we are 
very glad that you are here.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Bennet follows:]

                  Prepared Statement of Senator Bennet

    Mr. Chairman, Ranking Member Alexander, thank you for 
holding this hearing and for beginning the process to 
reauthorize the Higher Education Act.
    Today, we live in a global economy where a college degree 
has increasingly become a prerequisite for success.
    During the height of the recession, the worst that the 
unemployment rate ever got for people with a 4-year college 
degree was 4 percent.
    The country's future competiveness and the strength of our 
economy depend upon the skills and education of the next 
generation.
    Over the last century, our higher education institutions 
have made America a world leader in discoveries, in 
advancement, and in economic prosperity.
    But America is falling behind the rest of the world in the 
percentage of our population with a college degree. In 1995, 
America ranked 2d in the percentage of 25- to 34-year-olds with 
postsecondary degrees. Now we're ranked 12th.
    College must be made more affordable.
    Tuition costs are rising, while median family incomes are 
falling.
    We cannot rest until higher education is within reach for 
all students who want to go to college--regardless of their 
position on the economic ladder.
    Students should not have to leverage their futures with 
mountains of debt in order to pursue the American dream.
    We also need to do more to support students when they are 
in school. Among public institutions in Colorado, less than 30 
percent of students who began school in 2004 graduated in 4 
years and less than 60 percent graduated in 6 years. This is 
unacceptable.
    The incentive structures in our higher education system are 
broken. Institutions do not have the incentive to improve 
quality or lower costs and that means that students often lose.
    The goal of HEA reauthorization must be to design a system 
of higher education that is focused, above all else, on 
ensuring student success.
    We need a wholesale conversation about every factor that 
touches on affordability: tuition rates, loans, grants, and tax 
incentives, to name a few.
    We need to increase transparency and change the incentive 
structures so that institutions are encouraged to keep costs 
low, increase quality and provide students with an education 
that will allow them to succeed in the 21st century.
    We also need to provide students with the information they 
need to make smart decisions and encourage and support them to 
reach completion of programs, certificates, and degrees.
    We must think outside of the box.
    Students now have the opportunity to engage in educational 
experiences involving technology and distance learning that our 
generation could not have imagined.
    We should create more space for innovation and alternative 
programs, giving schools the ability to try new approaches 
while ensuring colleges equip students with the skills needed 
for the new economy.
    Fixing our system of higher education will be hard work. It 
will require a commitment to engage in hours of discussion and 
to find shared ground for improvement. Our students deserve it.
    I look forward to working with my colleagues on both sides 
of the aisle to improve and reauthorize the Higher Education 
Act.

    The Chairman. Thank you, Senator Bennet.
    Next is Dr. Terry Hartle, senior vice president of the 
American Council on Education, which represents more than 1,800 
member institutions. He directs the Council's efforts to engage 
Federal policymakers on issues including student aid, 
government regulation, scientific research, and tax policy.
    I just might want to add, also, that prior to joining the 
Council, Dr. Hartle served for 6 years as the staff director of 
this Senate Committee on Labor and Human Resources, which was 
then chaired by Senator Kennedy, and I was a freshman member. I 
sat clear down there at that time.
    Our next witness, Dr. Susan Phillips, serves as a provost 
and vice president for Academic Affairs for the University at 
Albany in New York. Dr. Phillips serves on the National 
Advisory Council for Institutional Quality and Integrity where 
she chaired the Higher Education Authorization subcommittee, 
and helped develop recommendations to the Secretary of 
Education on institutional accreditation and quality assurance. 
She previously led the American Psychological Association 
Committee on Accreditation, and was appointed by the New York 
State Board of Regents to their Policy Advisory Group, the 
Professional Standards and Practices Board for Teaching.
    Next is Dr. Marshall Hill. Dr. Hill is the executive 
director for the National Council for State Authorization 
Reciprocity Agreements, which provides a voluntary regional 
approach to State oversight of postsecondary distance 
education. Prior to assuming this role, he served 8 years as 
the executive director of Nebraska's Coordinating Commission 
for Postsecondary Education and as assistant commissioner for 
Universities and Health Related Institutions at the Texas 
Higher Education Coordination Board.
    In October of last year, he began a year of service as the 
chair of the executive committee of the State Higher Education 
Executive Officers Association, SHEEO. Before that, he was a 
faculty member for 17 years at universities in Utah, Iowa, and 
Mississippi.
    We have a distinguished panel, and we welcome you. Thank 
you for being here, and for your service. Your statements will 
all be made a part of the record in their entirety.
    I will start with Dr. Lingenfelter. Take 5 to 7 minutes, we 
will move down the panel, and then we will open it up for a 
general discussion.
    Dr. Lingenfelter, welcome and please proceed.

  STATEMENT OF PAUL E. LINGENFELTER, Ph.D., FORMER PRESIDENT, 
STATE HIGHER EDUCATION EXECUTIVE OFFICERS ASSOCIATION, BOULDER, 
                               CO

    Mr. Lingenfelter. Thank you very much, Mr. Chairman, and 
members of the committee.
    Senator Bennet, thank you for your introduction. I want to 
mention that your family friend and member of my staff, Charlie 
Lenth, was marooned in the mountains for a couple of days, but 
he is down, and he is safe now, and back to work.
    I will be very brief on the history of the triad. I was 
asked to comment on the history of the triad and its current 
effectiveness, and then get into some specific recommendations 
for each member.
    The States are the senior member of the triad. The States 
got involved in higher education when Massachusetts chartered 
Harvard in 1650, and today, 98 percent of the colleges and 
universities in the United States have the authority to give a 
degree because of power granted by the States. The remaining 2 
percent are a few authorized by Congress, mostly military 
academies, and a few authorized by sovereign Indian tribes.
    Accrediting institutions or accrediting associations began 
to be formed in the late 19th century initially to distinguish 
colleges from secondary schools, and they grew to cover the 
country in regional accreditation by 1923.
    The Federal Government's first role in the triad was the 
passage of the Morrow Act, I think one of the great 
achievements of the Lincoln Administration along with the 
Homestead Act and the Intercontinental Railroad Act.
    The Federal role, though, then expanded dramatically after 
World War II, and at that point in time is where the triad 
began to function because in 1952, after the Korean War, 
Congress asked the Commissioner of Education to recognize 
accrediting associations to validate the participation of 
veterans for veterans' benefits. At that time, there were 22 
accrediting associations. Congress relied further on 
accreditation through the National Defense and Education Act, 
and the Higher Education Act, and today, we have well over 50 
accrediting associations, I think really fed by the interest in 
Congress in using that mechanism.
    I am going to focus now on some specific recommendations 
for each member of the triad. The States, I believe, need to 
develop more effective means of consumer protection and 
complaint resolution as the court of last resort. The State 
activity has been focused on institutions; I think States need 
to focus more on students.
    The States need to avoid duplicating the function of 
accreditors in reviewing and assuring fundamental academic 
quality. Sometimes that is difficult to do because the States 
are the first authorizing entity and accreditors will not 
accredit an institution until they have a track record, so they 
have to start someplace. Some State regulations really 
duplicate the function of accreditation, and that needs to be 
reduced. It is unnecessary duplication.
    Third, the States should reduce and eliminate the 
variability among them in the effectiveness of their oversight. 
Some States are pretty responsible and have real capacity to do 
this work well; others have not developed that capacity, and I 
think changes in the higher education environment require the 
States to exercise their limited role with more energy.
    The States need to resist pressures to use their regulatory 
powers to diminish productive competition. Sometimes existing 
institutions would prefer nobody else invades their turf. That 
is not a good idea.
    Finally, the States should enter into interstate 
reciprocity agreements to avoid duplication among the States 
for institutions that are operating in more than one State.
    Accreditors need to achieve greater transparency by being 
more forthcoming and open in the information they share with 
members of the triad. I think they need some degree of immunity 
from liability as they exercise their role properly, and that 
is something the Federal Government should consider.
    Most importantly, though, I think accreditors need to agree 
on coherent, meaningful, and consistent standards for defining 
the knowledge and skill that are associated with the various 
degrees and certificates. The degree qualification profiles 
have been developed by some academic leaders. Academic leaders 
in every other country that is competing with us have defined 
what a degree means and they hold themselves accountable to it. 
We do not do a very good job of that, and I would like to see 
the academic community pick that up.
    Finally, I think accreditation should focus on title IV 
eligibility more intensively on student learning and success 
rates rather than for title IV purposes multiplicity of issues 
that they now address.
    I am going to wrap up in about another minute. I know my 
time is limited.
    I would like to suggest that the Federal Government should 
consider simplifying standards for recognizing accreditors for 
purposes of title IV eligibility to focus on whether or not 
students actually achieve the learning objectives of their 
degree, and there is some kind of a common framework for that, 
and the rate at which students succeed. We cannot afford to 
have low quality degrees nor can we afford to have high failure 
rates in institutions.
    The Federal Government should provide protections to 
accreditors from legal challenges. And finally, I think the 
Federal Government should refine and strengthen the tools that 
it uses in contributing to its role in the triad.
    I really think the partnership is important, all three legs 
are important. They need to work together, but all three can 
improve. I will stop there.
    Thank you very much.
    [The prepared statement of Mr. Lingenfelter follows:]
           Prepared Statement of Paul E. Lingenfelter, Ph.D.
                                summary
                   history and evolution of the triad
    The States have played a role in chartering, authorizing, and to 
some degree overseeing institutions of higher education since the 
colonization of the Americas. Accrediting associations began to be 
formed in the late 19th century, initially to distinguish colleges from 
secondary schools. The Federal Government's first role in higher 
education was the passage of the Morrill Act in 1862. The Federal role 
expanded dramatically after World War II with the GI bill, the National 
Defense in Education Act, and the Higher Education Act. ``The triad,'' 
a partnership involving the Federal Government, the States, and 
accreditors, was formed in order to assure the integrity and cost-
effectiveness of these Federal programs to support students enrolled in 
postsecondary education.
   effectiveness of the triad--why changes are needed, what could be 
                            better, and how?
    While the fundamental structure and purpose of the triad is sound, 
all three partners need to make adjustments in order to meet the 
growing demand for widespread, high quality postsecondary education and 
the changing ways instruction may be offered.
    The States:

    1. Should all develop more effective means of consumer protection 
and complaint resolution as a court of last resort when institutions 
fail to resolve such matters.
    2. Should avoid duplicating the functions of accreditors in 
reviewing and assuring fundamental academic quality.
    3. Should reduce and eliminate the current variability among States 
in the effectiveness of their oversight.
    4. Should resist pressures to use regulatory powers to diminish 
productive competition.
    5. Should enter into interstate reciprocity agreements to avoid 
duplicative, ineffective regulation of institutions offering 
instruction in multiple States.

    Accreditors:

    1. Should achieve greater transparency, sharing and receiving 
information pertinent to institutional integrity and effectiveness with 
other members of the triad, with mechanisms to achieve appropriate 
confidentiality and the constructive use of information.
    2. Agree on coherent, meaningful, and consistent standards for 
defining the knowledge and skill associated with the various degrees 
and certificates.
    3. Focus Accreditation for title IV eligibility more intensively on 
student learning and success.

    The Federal Government:

    1. Consider simplifying standards for recognizing accreditors to 
focus on student learning and success.
    2. Should provide protections for accreditors from legal challenges 
related to the responsible performance of their role in the triad.
    3. Refine and strengthen the tools available to the Federal 
Government for assessing student success and make them readily 
available to States and accreditors.
                                 ______
                                 
    Chairman Harkin, Ranking Member Alexander, and members of the 
committee, I am Paul Lingenfelter, and I have been CEO/President of the 
association of State Higher Education Executive Officers (SHEEO), based 
in Boulder, CO from 2000 until this week. George Pernsteiner, formerly 
Chancellor of the Oregon University System, has succeeded me at SHEEO 
effective September 16th. Earlier in my career, beginning in 1968, I 
was employed by the University of Michigan, the Illinois Board of 
Higher Education, and the John D. and Catherine T. MacArthur 
Foundation.
    I am honored to have this opportunity to outline the history and 
evolution of the ``triad'' of State governments, the Federal 
Government, and voluntary accreditation and to comment on the 
effectiveness of the triad's role in the oversight of title IV Federal 
financial assistance. While I am indebted to all of my employers and 
colleagues over the years, I represent no one but myself today.
                   history and evolution of the triad
    Of the members of the triad, the States have the longest history 
and role in higher education. Massachusetts chartered Harvard in 1650, 
and other early colleges were chartered by the colonies, the King of 
England, or the newly formed State governments after the Revolution. 
Several of our most distinguished private universities received direct 
funding from the colonies at their founding.
    The continuing role of the States in the triad is based first of 
all on their role in providing the legal authority to grant an academic 
degree. Buttressed by a considerable body of case law, Alan L. 
Contreras asserts that a degree is valid only if properly granted by an 
entity with legal authority to do so. Legal authority in the United 
States must come from the Congress, a recognized sovereign Indian 
tribe, or a State government. (Alan Contreras, ``The legal basis for 
degree-granting authority in the United States,'' SHEEO: 2009) (http://
www.sheeo.org/sites/default/files/publications/Contreras2009-10-
LegalDegreeGranting.pdf.
    Congress has granted degree granting authority to the military 
academies and a few other institutions, a small number of colleges are 
chartered by Indian tribes, but the vast majority (more than 98 
percent) of U.S. degree-granting institutions are authorized by the 
States. State authorization comes in three basic forms, public 
institutions owned or operated by the States or a subdivision of the 
State, nonpublic institutions given formal State authorization to offer 
degrees, and schools authorized by a de facto delegation of State 
authority to a religious body through ``religious exemption'' statutes.
    As a practical matter degree authorization decisions generally are 
made when an institution commences operations in a State. State laws 
may also require approval for specific programs and for new programs 
developed over time. Commonly, long established private institutions 
are exempted from the requirement for State approval of new degree 
programs.
    The States also play a role in consumer protection. They have the 
power to act in situations involving fraud or misrepresentation, and 
they may revoke degree granting authority for cause. As part of their 
role in consumer protection, many States have created procedures to 
retain academic records for students when an institution goes out of 
business. They also develop and supervise plans to enable students to 
complete degree programs whenever an institution becomes incapable of 
providing instruction.
    While the role of the States in higher education has the longest 
history and remains critically important, the Federal Government has 
played an enormously significant role in expanding educational 
opportunity and achievement in the United States. The Morrill Act of 
1862 was the first step, providing grants to the States for land grant 
universities, which expanded both the academic purview and the scope of 
public higher education. (The Morrill Act was one of three 
revolutionary actions of Lincoln's Congress to expand opportunity and 
prosperity by investing in higher education, infrastructure (the 
Intercontinental Railroad), and economic opportunity (the Homestead 
Act.))
    In the quarter century after World War II, the Federal Government 
took several significant actions that greatly increased the capacity 
and contributions of higher education in the United States. First, the 
Truman Commission articulated a vision for widespread higher 
educational opportunity, far beyond the imagination of many educators 
at that time. Then the GI bill made higher education accessible to WWII 
veterans, enrollments surged, and the knowledge and skill of the U.S. 
workforce grew dramatically. Congress' post war commitments to research 
and development, the National Defense Education Act of 1958 (in 
response to Sputnik) and the Higher Education Act of 1965 (repeatedly 
reauthorized) have led to a robust partnership between the States and 
the Federal Government in public support of higher education. 
Importantly this public support has been supplemented with substantial 
private and philanthropic commitments.
    The primary roles of the States have been four: (1) to provide 
direct appropriations for institutional operations and student 
assistance; (2) to invest in capital facilities: (3) to provide 
operational governance and oversight of public colleges and 
universities; and (4) to provide consumer protection/degree 
authorization of non-public institutions. In addition to supporting 
public higher education, on a smaller scale States have also assisted 
non-public institutions with student assistance and some direct 
support. The Federal Government's role has included title IV student 
grants and loan programs, veterans educational assistance programs, and 
substantial investments in research and development, especially peer-
reviewed R&D.
    The third leg of the ``triad,'' higher education accreditation, was 
created by educators as a means of establishing credible distinctions 
among different types of institutions (colleges and secondary schools, 
initially) and identifying those institutions that meet the academic 
community's standards of quality. The New England Association of 
Colleges and Secondary Schools was founded in 1885, and by 1923 when 
the Western Association was founded, the entire Nation was covered by 
six ``regional accreditors.'' (A nice summary of higher education 
accreditation prepared by the New America Foundation can be found at: 
http://pnpi.newamerica.net/spotlight/higher_education_accreditation. 
Other extensive information on accreditation can be found at 
www.chea.org, the site of the Council for Higher Education 
Accreditation.)
    Increasingly accreditors describe their mission as both assuring 
quality and advancing continuous improvement in higher education. They 
persuasively argue the merits of professional self-regulation and 
voluntary participation to meet these needs in the accreditation 
process.
    While States and accreditors were surely aware of each other before 
WWII, the explicit relationship between accreditors and government was 
created when the Federal Government began making significant 
investments in higher education. In the Veterans Readjustment Act of 
1952 (the Korean GI bill) the U.S. Commissioner of Education was 
directed to publish a list of nationally recognized accrediting 
agencies and associations as a reliable authority on the quality of 
educational institutions. Subsequently, as we all know, accreditation 
by a nationally recognized accreditor has become a condition of 
institutional eligibility for participation in title IV. The Department 
of Education, advised by the National Advisory Committee on 
Institutional Quality and Integrity (NACIQI), has the power to 
recognize or withhold recognition from accreditors.
    In some respects the ``triad'' was created when three relatively 
independent actors with different powers, commitments, constituencies, 
roles, and responsibilities found themselves in deeply interdependent 
relationships. It is unsurprising that these relationships are not 
always comfortable, and that many people find the current effectiveness 
of the triad unsatisfactory.
   effectiveness of the triad--why changes are needed, what could be 
                            better, and how?
    While I believe the fundamental structure and functions of the 
triad are sound and indispensable, all of the actors in the triad must 
make adjustments in order to address new demands and take advantage of 
new opportunities in higher education. The competitive global economy 
and advancing educational attainment around the world have raised the 
stakes for individuals and our country, and the means of generating 
educational attainment have become increasingly creative and 
diversified.
    In his first address to Congress in February 2009, President Obama 
said that the Nation's goal must be for every American to complete high 
school and then obtain some kind of postsecondary education, a degree 
or certificate. This is not simply the President's goal; it is widely 
shared across our Nation. The unprecedented enrollment demand for 
higher education since the turn of the century, proves that the 
President was simply saying what most people already know.
    That said, the needs of our employers and our economy will not be 
met by more graduates at a lower standard of quality, or even more 
graduates at the current levels of quality. Employers tell us we need 
more graduates who have sophisticated technical skills, who can solve 
complex problems, and who can communicate effectively with a wide range 
of people. This isn't just a matter of accumulating knowledge; we need 
more people who both have knowledge and who have the skills to use what 
they know to become economically self-sufficient and fully productive 
members of our communities.
    It is obvious we cannot have a strong economy without adequate 
investments in education, but we have no resources to waste. Somehow 
the Nation must meet a wide range of economic challenges--creating 
jobs, financing pensions, providing health care (more efficiently), 
rebuilding infrastructure, national defense, protecting our 
environment, and more--while we help Americans acquire the knowledge 
and skills they need to be successful individually and keep our Nation 
strong. We cannot afford to waste student potential, and we can't 
afford educational programs that are not cost effective.
    These needs are widely recognized, but you will hear different 
opinions about what members of the triad should do about them. With an 
open mind and due regard for other perspectives, let me add my thoughts 
to the conversation.
                               the states
    I'll begin with the States. The States generally have focused on 
their traditional roles, supporting and governing public colleges and 
universities and conferring degree-granting authority to non-public 
institutions. These are the problems with the traditional State roles:

    1. These roles are focused on institutions, not students, which 
means they focus primarily on inputs not the outcomes of higher 
education;
    2. The States which have not developed much capacity for overseeing 
non-public institutions (often the States served primarily by public 
institutions) are very attractive sites for non-public institutions 
seeking to avoid careful oversight;
    3. Existing institutions sometimes mobilize their political 
resources to oppose conferring degree granting authority on potentially 
competing institutions, whether they are new or existing institutions 
seeking new programs;
    4. State review of institutions in some cases overlaps with the 
requirements of accreditation in reviewing faculty, curriculum, 
facilities, etc. This is not entirely avoidable, because new 
institutions need State authority to operate and a track record before 
they are eligible to apply for accreditation. Nevertheless, unnecessary 
duplication between State regulation and accreditation is burdensome 
and wasteful; and
    5. When an institution offers instruction in more than one State 
(an increasingly common practice in distance education), that 
institution must seek approval in all the States whose laws give them 
authority over such programs. State rules and procedures differ, and 
institutions offering instruction in many States bear substantial, and 
unjustifiable regulatory burdens. In addition, many States are now 
incapable of adequately regulating all the institutions offering 
instruction in their territory.

    How should the States respond to the demands of changing 
conditions? I offer the following suggestions:

    <bullet> First, all States should develop the ability to provide 
effective student/consumer protections for their citizens enrolled in 
higher education. Clear standards for institutional practices should be 
developed, well-publicized, and required for operating authorization 
and accreditation. Institutional review procedures should be the first 
recourse for students with complaints, but States should be available 
as a ``court of last resort'' when complaints are not resolved at the 
institutional level. In the hopefully rare cases when substantial 
numbers of complaints occur and cannot be resolved, the States have the 
legal powers for taking firm corrective or punitive action appropriate 
to the circumstances.
    <bullet> Second, States should not duplicate the academic quality 
review procedures of accreditors. As I will suggest below, the academic 
standards of accreditors should be consistent and accreditors should be 
sufficiently rigorous in upholding them, so that States can confidently 
defer to voluntary accreditation for assuring the adequacy of academic 
quality. To make such trust feasible, accreditors and States should 
regularly share information about institutional performance issues that 
are legitimate matters for mutual concern.
    <bullet> Third, the variation among States in their ability to meet 
their responsibilities in the triad should be reduced and eliminated as 
far as possible. The triad is not working effectively if it does not 
work in a reasonably consistent manner in every State and for every 
accreditor.
    <bullet> Fourth, States should resist the temptation or political 
pressure to base regulatory decisions about one institution on the 
interests of other institutions in reducing competition. Within the 
public sector (just as within the private sector), it would be 
irrational not to avoid unnecessary duplication of programs within a 
single system. But part of the vibrancy, creativity, and effectiveness 
of American higher education comes from competition among institutions. 
Public subsidies should not be used wastefully, but excessive 
regulation or politically motivated regulation will be just as wasteful 
as the absence of rational regulation and planning.
    <bullet> Fifth and finally, States should harmonize their practices 
and create the means for reciprocal authorization when institutions 
operate in more than one State. The recently developed State 
Authorization Reciprocity Agreement is such an approach in distance 
education. The principle of this agreement is simple: To participate in 
the agreement, a State must establish and implement effective consumer 
protection and quality assurance mechanisms worthy of the confidence 
and trust of other States. Institutions whose ``home'' is in such a 
State, once authorized by that State, will be automatically authorized 
to offer instruction in every other participating State. Continuing 
participation in the Agreement requires satisfactory performance.
                        accrediting associations
    The diversity of American higher education is evident in the 
diversity of our accreditors--regional, national, and specialized, with 
short and long histories, and with few and many institutional members. 
Our system works through voluntary peer review and professional self-
regulation, and it is difficult to imagine that any approach without 
these components could provide the essential depth and breadth of 
expertise that accreditation brings to the work of quality assurance 
and institutional improvement.
    The ``owners'' of accrediting associations are its institutional 
members, and these principles have been promulgated as their core 
values:

    <bullet> Institutions, not government, should be the primary 
authority on academic matters and have the primary responsibility for 
ensuring the quality of academic programs;
    <bullet> An institution's mission is central to judging the quality 
of its academic program;
    <bullet> To maintain and improve academic quality, institutional 
autonomy is paramount;
    <bullet> The American system of higher education has grown and 
thrived due to the decentralization and diversity of the system; and
    <bullet> Academic freedom thrives under the academic leadership of 
institutions of higher education.

    These values emphasizing institutional autonomy might suggest that 
institutions and accreditors will normally be on the same page, and 
concomitantly, that accreditors and government might rarely work well 
together. The reality, however, is more complex.
    Accreditation standards over time have evolved to become, in some 
cases, quite complex and challenging. Input standards (quality of 
facilities, quality and quantity of academic faculty and library 
resources, etc.) initially were examined to establish qualification for 
accreditation and degree granting authority. Over time additional 
process standards have been developed, including standards for 
governance, for self-study related to an accreditation review, and more 
recently for establishing student learning goals and assessing 
outcomes.
    It is common for institutions to complain about accreditation 
procedures and standards, especially the breath and complexity of self-
study requirements. College and university administrators tell stories 
of faculty holding them ``hostage'' to the requirements of specialized 
accreditors in order to achieve preferential treatment on staffing or 
facilities. It is evident that accrediting associations have 
proliferated because some institutions were shopping for, or determined 
to create a better deal.
    While accreditors frequently worry about governmental intrusion, 
and I've heard them complain about governmental demands for more 
transparency, I've not heard many serious proposals from accreditors 
for de-coupling title IV eligibility from accreditation. The current 
accreditation industry in the United States would undoubtedly look very 
different without this linkage.
    Rather than spending more time on the many complex issues involved 
in accreditation, I will focus on just a few issues where I believe 
accreditation could be a more effective and helpful member of the 
triad.

    1. Achieve Greater Transparency. It is frequently asserted that 
absolute, or near absolute confidentiality of accreditation reports and 
observations is essential to preserve candor in accreditation reviews. 
The potential that information might be provided to States or the 
Federal Government would have a chilling effect on the process, it is 
claimed. Moreover, accreditors express fear of civil liability if they 
reveal information that could be damaging to the credibility and 
financial viability of an institution. These are legitimate concerns, 
but when taken to an extreme they make the process of quality assurance 
an empty exercise.
    I believe it would be helpful if accreditors could be provided 
reasonable protection from liability for providing information that is 
relevant to the public purposes related to title IV eligibility. It 
might also be helpful if accreditors and governments could agree that 
information potentially calling into question an institution's 
viability could, for a reasonable period of time, be held confidential 
while the institution has an opportunity to take corrective action. I 
believe such a procedure is used by the Federal Reserve when it 
identifies issues assessing the strength of financial institutions.
    There should be rules of engagement, appropriate confidentially, 
and fairness, but I don't believe the triad can be effective if the 
members can only work together in the dark.
    2. Agree on coherent, meaningful standards for the knowledge and 
skill signified by an academic degree. The primacy of professional 
judgment in defining academic quality is beyond question. The primacy 
of academic judgment does not rule out the potential for agreement on 
coherent standards. I would neither propose nor favor creating a 
national Ministry of Education in the United States, but it would be 
good for the United States if our academic community would do for us, 
what academics in other countries have done for them--created a 
framework for degree qualifications which define the knowledge and 
skills signified by the degree. While these frameworks in other 
countries have been created with the support and encouragement of 
governments, they are the work of academic professionals.
    In many professional fields accreditors have already defined what a 
degree holder should know and be able to do. Similar standards of 
student achievement should be provided as the benchmarks every 
institution uses in assessing the effectiveness of its academic 
programs. A good start on such a framework, the Degree Qualifications 
Profile, has been developed in the United States. It would advance 
education in the United States if accreditors would come together 
voluntarily in support of this or a similar set of standards.
    3. Focus title IV accreditation more intensively on student 
learning and student success. It is commonly suggested that the 
institutional mission, seemingly regardless of what it may be, should 
be the basis for assessing academic quality. I think that premise has 
some limits.
    I was recently contacted by a headhunter looking for a president 
who,

          ``will be ultimately accountable for successfully overseeing 
        a shift away from an enrollment/admissions-centric model to a 
        model focused on student outcomes.''

    It is evident that the mission of this institution previously has 
been incidentally student learning, and primarily student recruitment. 
It seems to me that accreditation for title IV eligibility should be 
based on institutions accepting the challenge of producing legitimate 
degrees based on meaningful standards and achieving a reasonable rate 
of completion among the students it admits.
    It is vitally important that the colleges and universities in the 
United States successfully educate many more first generation students, 
low-income students, and students who may not have been well prepared 
in high school. The most valuable institutions will be those who learn 
how to serve such students well. We have plenty of institutions who can 
do a good job with very bright, well-prepared students. We cannot 
afford to serve disadvantaged students poorly. Serving them poorly is 
both an injustice and a waste of money.
    Accreditors sometimes address other issues that go beyond the core 
issue for title IV: successfully graduating most of its students with 
the knowledge and skills required for a legitimate degree. Without 
denying the importance of other issues, I don't believe they should be 
material in determining title IV eligibility; they should be addressed 
outside the reciprocal responsibilities of the triad. Successfully 
graduating students with legitimate degrees should be the foundational 
standard for title IV eligibility.
    Many institutions can easily demonstrate that they meet this core 
standard; such institutions should not be required to do more for title 
IV eligibility.
                         the federal government
    The mission of the Federal Government in the triad is not that of 
accreditors, to assure and advance academic quality, nor is it exactly 
like that of the States, to provide education and assure consumer 
protection. The mission of the Federal Government is to work 
effectively with accreditors and the States to assure the integrity and 
cost-effectiveness of the Federal programs that assist students 
enrolled in higher education.
    This is not an easy responsibility given the diversity of practices 
and standards within the States and the accrediting community discussed 
above. As we work together to address these issues, I can think of ways 
the Federal Government might help make the partnership more effective.
    First, the current Federal standards for accreditation reflect the 
long history of input standards, process standards, and outcome 
standards that have accumulated in the field. The most serious problems 
with the integrity and cost effectiveness of Federal programs in my 
experience are related to substandard rates of retention and 
completion, compounded by inadequate learning outcomes. If the 
community can improve the tools we have to measure these outcomes and 
our ability to improve performance, perhaps the accreditation process 
and the rules for Federal recognition could become leaner and more 
efficient.
    Second, the Federal Government has tools and resources for auditing 
institutional performance and financial stability that exceed the 
capabilities of the States or accreditors. Perhaps knowledge from these 
tools can be shared more effectively and routinely.
    In addition, the Federal Government has, with some controversy, 
sought other ways of contributing to the integrity and cost 
effectiveness of Federal programs. Loan default rates are relevant, 
enrollment retention and graduation rates are relevant, and employment 
after graduation is relevant. In order to develop and make effective 
use of such accountability tools, we need to find a way of dealing with 
some complicated data and analytical problems. I think these challenges 
are solvable, and meeting them should be a priority. Stronger 
partnerships, with the sharing of information available to each 
partner, could make the triad more effective.
    Chairman Harkin and Ranking Member Alexander, members of the 
committee, this concludes my testimony. Thank you for the invitation 
and your attention. I'd be pleased to respond to questions or comments.

    The Chairman. Thank you very much, Dr. Lingenfelter.
    Dr. Hartle, welcome again, back to your old home place 
here.

  STATEMENT OF TERRY W. HARTLE, Ph.D., SENIOR VICE PRESIDENT, 
         AMERICAN COUNCIL ON EDUCATION, WASHINGTON, DC

    Mr. Hartle. Thank you very much, Senator Harkin.
    I am honored to be here, and I can say authoritatively that 
the view in the room is better from where you sit than anywhere 
else in the place.
    I have been asked to talk about the Federal role in the 
triad. The Department of Education's primary responsibility in 
the triad is to ensure that schools have, ``The administrative 
capability and financial responsibility,'' to participate in 
Federal student aid programs. I am going to make three 
observations on this role.
    First, a great complexity. This part of the Higher 
Education Act involves 9 pages of law and untold pages of 
regulations and sub-regulatory guidance. Given the length of 
the statutory language, this complexity is to be expected. The 
complexity can easily distract attention from what should be 
the Federal Government's central concern, which is 
administrative strength and a fiscal capacity.
    Second, uneven and inconsistent. Much of the enforcement of 
this part of the triad is in the hands of the Department's 
regional offices. The training that these officials receive is 
often of varying quality and intensity. The large number of 
things they are responsible for favors general enforcement over 
more detailed examination. Not surprisingly, schools find that 
interpretation of specific rules differs across regions. Nor is 
it clear that the Department has all the technical expertise it 
needs to adequately address the exceptionally complex issues 
that may be presented.
    Finally, data. This part of the law was largely created in 
an earlier era and some of its provisions are obsolete. For 
example, during the economic downturn in the last decade, a 
number of financially strong private colleges and universities 
found that they had run afoul of the financial responsibility 
regulations because a decrease in endowment value was counted 
as a current operating loss by the Department. Despite this 
problem, the Department has been reluctant to review the 
efficacy of these regulations.
    This is not to criticize the Department unfairly. The law 
is complex and the regulations reflect that, but this 
complexity creates its own set of problems that institutions 
and the Federal Government struggle with. In any 
reauthorization, the tendency is to add new requirements to 
those already in existence. If this happens, I think the 
problems that I have laid out above will be exacerbated.
    To avoid this, I think the committee should request an 
independent third-party review of the institutional eligibility 
process to understand how it works now and to assess its 
strengths and weaknesses. The goal should be to create a common 
understanding as a basis for moving forward. It should address 
such things as risk-based modeling, the rigor of new school 
examination, the staff expertise to protect students and 
taxpayers, and the regulatory burden placed on institutions.
    The Department also has a responsibility with respect to 
the other parts of the triad, and neither the States nor the 
accreditors operate independently of the Department.
    The State role provisions in the Higher Education Act are 
actually the shortest part of the entire law at 150 words. The 
States are only required to do three things and some States do 
a very good job of fulfilling their responsibilities. Others 
are not terribly interested in serving as administrative agents 
for the Department, and there are no tools for the Federal 
Government to force them to do so. Efforts by the Department to 
make these States take a more active role has only sown 
confusion.
    Accreditations, more by accident than design, has become 
the most heavily relied-upon aspect of the triad. Given the 
challenges with eligibility and certification in the State 
role, the natural tendency is to load more and more 
responsibility onto accreditors. In recent years, the 
Department has displayed a great willingness to do this.
    One accreditor was recently cited by the Department for not 
having enough faculty members on their review teams. It turns 
out that the Department, unlike everyone else involved in 
higher education, does not count department chairs as faculty 
members. I assure you that every accreditor could offer a 
similar story, but it underscores a central point that the 
committee has to address. Are accreditors nongovernmental 
agencies responsible for assessing quality and providing 
quality assurance as they have historically been, or are they 
regulatory extensions of the Department who must perform a 
limitless number of tasks? As I indicated, they started out as 
the former, but they are in the process of becoming the latter. 
Indeed, this might be the single most important issue you will 
consider as you think about the triad.
    I hope the reauthorization will sort out the complex and 
overlapping requirements. Many of these provisions were put in 
place at a time when the higher education universe was almost 
exclusively traditional colleges and universities. That is no 
longer the case and we will see even more nontraditional 
institutions in the future. That is good. Innovation is to be 
welcomed and we should applaud it, but it creates challenges.
    Rather than simply add a raft of new requirements, I hope 
the committee will investigate each part of the triad, examine 
its strength and weaknesses, and define the primary 
responsibilities that need to be assigned to each actor. Once 
you reach an understanding on those points, the most basic 
matters, you can build outward. It is a tall order, but as the 
world of higher education changes, it will become increasingly 
important that we take that step at this time.
    [The prepared statement of Mr. Hartle follows:]
              Prepared Statement of Terry W. Hartle, Ph.D.
                                summary
    During the early history of the Higher Education Act (HEA), the 
triad was largely a paper requirement. But that all changed with the 
1992 reauthorization. As defaults skyrocketed, Congress turned greater 
attention to the triad and decided to strengthen its components 
dramatically. The history of the last 20 years has been one of 
continual tweaking of the triad largely in the direction of placing 
more and more responsibility on accreditors. This has happened because 
accreditation is the strongest and most viable arm of the triad.
    I've been asked to address the Department of Education's role in 
the triad. Most importantly, the Department is charged with overseeing 
certification and eligibility for institutions that wish to be eligible 
to participate in Federal student aid programs. This part of the triad 
is fairly complex and has only gotten more so in recent years.
    Before adding more responsibilities to the Department, the 
committee should request an external, top-to-bottom review of the 
institutional eligibility process to better understand this process and 
how it could be improved. This review should examine the uniformity of 
practice across the Department's regions, the availability of tools for 
centralized risk-based modeling, the adequacy of staff training, and 
the timeliness of department action, among other factors.
    While the Department's central role in the triad is to ensure 
institutional eligibility and certification, each part of the triad is 
inescapably linked to the other parts. Because the Department is 
limited in its ability to require States to take an expanded role, it 
has increasingly turned to accreditors to fill this vacuum. 
Unfortunately, left unchecked, this trend threatens to make accreditors 
a regulatory enforcement arm of the Department. In sorting out these 
relationships, I would summarize my recommendations as follows.
    First, the eligibility and certification function of the Department 
has grown dramatically and resembles a garden where some extensive 
pruning is necessary. It is important to make certain the Department 
has the staff it needs to accomplish its responsibilities and that the 
expectations for institutions are clear, sensible and reasonable. 
Second, the State role in the triad, although important, is uneven. 
Third, accreditors have been forced to take on an oversized role with 
respect to the triad, and the Department of Education has significantly 
increased its control over them.
    The members of this committee know we are witnessing dramatic 
changes in almost every aspect of postsecondary education. Some of 
these changes will not last, while others may be transformational. The 
years ahead will bring even more changes we can't begin to imagine. 
This means that, like colleges and universities, the triad will 
continue to evolve over the rest of this decade and beyond. We must 
ensure it has the capacity to adapt to these new and unpredictable 
developments as they occur.
                                 ______
                                 
    Chairman Harkin, Senator Alexander and members of the committee, 
thank you for inviting me to testify today at this hearing examining 
the triad. During the early history of the Higher Education Act (HEA), 
the triad was largely a paper requirement. But that all changed with 
the 1992 reauthorization. As defaults skyrocketed, Congress turned 
greater attention to the triad and decided to strengthen its components 
dramatically. The history of the last 20 years has been one of 
continual tweaking of the triad largely in the direction of placing 
more and more responsibility on accreditors. This has happened because 
accreditation is the strongest and most viable arm of the triad.
                 department of education and the triad
    Today, I've been asked to speak specifically about the Department 
of Education's role in the triad. The Department is charged with 
overseeing certification and eligibility for title IV participating 
institutions. This part of the triad, contained in subpart 3 of title 
IV, is fairly complex and has only gotten more so in recent years.
    Under Section 498 of the Higher Education Act, the Department of 
Education is required to ensure ``the administrative capability and 
financial responsibility of an institution of higher education'' in 
order to participate in Federal student aid programs. In the simplest 
terms, the Department must be satisfied that institutions have the 
administrative and financial systems to guarantee they will be good 
stewards of taxpayer dollars.
    Through program reviews, institutions must provide sufficient 
information and documentation to satisfy the requirements of 
eligibility and administrative capabilities. Institutions are subject 
to a variety of sanctions if they fall out of compliance. The 
Department has the authority to fine institutions, suspend the 
availability of title IV aid and even terminate an institution's 
eligibility overnight if it determines students or taxpayers are at 
risk.
    Despite this incredible range of powers, most are rarely used or 
are applied unevenly. The most common sanction used by the Department 
is a fine and these are levied most frequently for non-compliance with 
reporting requirements, including campus crime (Clery Act) and 
statistical reporting under the Integrated Postsecondary Education Data 
System. The Department's authority under section 498A to take action 
against a college or university resulting in the immediate loss of 
institutional eligibility is used very rarely.
    Institutions must comply with a raft of regulatory requirements 
under subpart 3 and its related requirements. Many are exceptionally 
complex and the time and effort burden associated with them can be 
quite heavy. In addition, the Department often enforces regulations 
years after the violations allegedly occur. To cite one example: As a 
result of a 1994 investigation, two major universities were accused of 
violating regulations surrounding ``professional judgment.'' The 
universities appealed that ruling in 1995. They did not hear a word 
from the Department until earlier this year when the appeals were 
denied and fines imposed. Seventeen years. Not surprisingly, these are 
now known within the higher education community as the ``cicada 
fines.''
    Institutional compliance with these regulations is generally 
assessed by program reviews that are largely conducted by regional 
Department of Education staff. These officials do not always have the 
experience, tools or skills to handle the huge array of 
responsibilities they have. One specific concern is the ability of 
regional staff, trained to review student financial aid, to conduct the 
complex financial analysis necessary to assess the accounting practices 
and policies of large, publicly traded institutions.
    In addition, since oversight responsibility is divided across the 
Department's regional offices, we find institutions subject to 
different interpretations and liabilities as regional staff try to 
untangle various regulations and subregulatory guidance.
    Obviously, the Department's review actions often identify issues 
that must be addressed by the institutions. In many cases, this 
information would be of great interest to accreditation agencies. While 
accreditors are required by law to share information about 
institutional reviews with the Department, information sharing from the 
Department to the accreditors is very uneven.
    At present, the most controversial aspect of the Department's 
eligibility and certification activities concerns the financial 
responsibility provisions in section 498(c). That provision was greatly 
strengthened after the unannounced closures of several for-profit 
institutions in the late 1980s left students in the lurch. The current 
regulations were written in collaboration with the higher education 
community nearly 20 years ago to guard against precipitous closures of 
postsecondary institutions. However, the application of the regulations 
have not kept up with changes in accounting practices and, in some 
cases, have had unanticipated and undesirable consequences.
    The recent economic downturn, for example, has exposed significant 
shortcomings in administration of the ratios test. In 2010 alone, more 
than 100 nonprofit colleges unexpectedly failed the test, leaving them 
subject to department oversight and forcing them to obtain costly 
letters of credit. For some institutions, this change also triggered 
additional oversight and demands for letters of credit by State 
regulators. Institutions that were not at risk of precipitous closure 
were drained of resources which could have been better spent on student 
financial aid and other institutional priorities.
    As an example, when the market fell in 2008, the endowments of most 
colleges lost value. However, the methodology used by the Department 
was inconsistent with generally accepted accounting practices, causing 
the Department to view the decreases in endowment portfolio value as a 
current operating loss. A number of schools requested a correction, but 
the Department refused to reconsider.
    It is to be expected that the regulations to implement the subpart 
3 requirements are complex and messy--9 pages of statutory language are 
unlikely to result in clear or simple regulations. The complexity of 
the regulations is exacerbated by the tendency of the Department to 
consistently impose the maximum burden on institutions. As the U.S. 
Government Accountability Office noted in a recent report, the 
Department of Education rarely discusses these burdens with 
institutions before they take effect and therefore the Department 
seriously underestimates the institutional burden. The Department ought 
to be encouraged to make more of a good faith effort to assess the 
burdens they are imposing.
    Unfortunately, the Department does not seem interested in doing so. 
In the 2008 reauthorization, Congress, at the suggestion of Senator 
Alexander, included a provision requiring the Department of Education 
to compile and publish a ``compliance calendar'' so institutions would 
have a single source of information on what regulatory materials are 
due and by what date. Sadly, the Department of Education has not 
complied with this requirement.
    As I have noted, the requirements of subpart 3 are critically 
important. They have become exceptionally complex and impose a 
significant compliance challenge for institutions. The bottom line is 
that the Department of Education has extraordinary latitude and a wide 
variety of tools to protect students and taxpayers. However, the 
Department employs these tools in an inaccurate and uneven manner 
without opportunity for discussion. In addition, there are areas of 
significant deficiency which could be addressed by real-time access to 
data and increased staff training.
    But before adding more responsibilities, I think the committee 
should request an external, top-to-bottom review of the institutional 
eligibility process to better understand:

    <bullet> Uniformity of practice in institutional eligibility 
reviews, administrative capabilities and resulting findings across the 
Department's regions;
    <bullet> Availability of the tools necessary to do centralized 
risk-based modeling;
    <bullet> Adequacy of staff training with particular attention to 
the complexities of financial auditing;
    <bullet> Timeliness in the Department's resolution of outstanding 
issues resulting from program and other compliance reviews;
    <bullet> Rigor of new school eligibility practices before approval;
    <bullet> Administrative and regulatory burden imposed on campuses; 
and
    <bullet> Financial responsibility standards to ensure consistency 
with generally accepted accounting practices.
   department of education's relationship to other parts of the triad
    The Department's central role in the triad is to ensure 
institutional eligibility and certification, and I have suggested some 
ways that the Department could be refocused to more effectively meet 
its responsibilities in this area. However, we must remember that each 
part of the triad is inescapably linked to the other parts. Therefore, 
I would like to take a moment to discuss the current state of the 
Department's relationship to the other two parts of the triad: the 
States and the accreditors.
Ed's Role in Relation to the States
    With regard to its role with the States, the Department has tried 
mightily to get them to take a larger role with respect to approving 
institutions operating within their borders. States vary greatly in 
their willingness to perform such a function--some have complicated, 
multifaceted provisions and others do little more than require 
institutions to have a business license to be ``approved'' for purposes 
of Federal student aid. Ultimately, efforts by the Department in this 
area have failed, largely because it has very little authority to 
impose licensure requirements on States or to force them to do more 
than each State wants to do.
    The Department's efforts have also resulted in considerable 
confusion for institutions in concerning how to ensure their compliance 
with shifting mandates and unclear guidance. In 2011, the Department 
significantly expanded its State authorization regulation and tried to 
put some teeth into State requirements. The new regulation, and the 
inevitable subregulatory guidance, imposed a complex set of 
requirements State licensure systems must meet in order to pass Federal 
muster (e.g., requirements about the type of complaint system, the 
extent to which accreditation can substitute for licensure process, 
whether the school is licensed as a charitable entity and so on). 
Unfortunately, some States simply ignored the new requirements and 
major confusion, especially for private colleges and universities, has 
resulted. It is now clear that State laws and administrative practice 
are highly complex. As questions arose, the Department and regional 
offices offered an array of different interpretations. In the end, the 
Department was unable to say which States met the regulatory 
requirements and has postponed the implementation of the regulations 
for another year.
    Another example of the confusion stemming from this well-
intentioned effort is the Department's demand that an institution be 
authorized in any State where a student is located. In an era of 
distance education, many institutions have a few students in many, if 
not all, States.
    Many States have seized this opportunity as a revenue generator and 
the cost to institutions to obtain and maintain certification is very 
high. For example, a State regulator tried to force Coursera to become 
authorized in Minnesota in order to offer free online courses in the 
State.
Ed's Role in Relation to Accreditors
    In the Department's relationship to accreditors, we see an alarming 
trend of more and more responsibilities being placed on the shoulders 
of accreditors.
    Under the HEA, the Department, working through the National 
Advisory Committee on Institutional Quality and Integrity (NACIQI), 
must ``recognize'' accrediting agencies as ``reliable authorities'' on 
institutional quality. Over time, we have seen the Department use 
NACIQI as a lever to try to gain greater control over academic quality 
issues. Currently, accreditors are required to complete an 88-page, 
highly detailed document before they can be considered for recognition. 
Even trusted accreditors must demonstrate compliance with that document 
each time they appear for renewal of recognition.
    Accrediting agencies have been regularly given new responsibilities 
because the Department of Education would like them to perform 
additional functions. For example, accreditors are now expected to use 
a Federal definition of credit hour and assess institutional credit 
hour determinations. Unfortunately, the Department's definition is not 
a good one. It is overly focused on the amount of time a student spends 
in class. In an era when online learning and competency-based education 
are growing rapidly, a single Federal definition based largely on 
``seat time'' is fatally flawed. Even the Department will now privately 
admit the definition does not work, yet the regulation remains in place 
and accreditors are carefully assessing institutional credit hour 
decisions. This definition has created challenges for many excellent 
and academically serious institutions that have, over decades, found 
slightly non-traditional ways to record credits on their transcripts.
    Accreditors believe the recognition process has turned into a game 
of gotcha where interpretations are unpredictable and change 
frequently. One accreditor was recently told it could not count 
Department chairs as faculty members on their review teams. This is a 
curious decision--even the Department's IPEDS definition of faculty 
makes clear that Department chairs are faculty members. What is 
worrisome is the willingness of the Department to make such a specific 
decision. The Department is charged with ``recognizing'' accreditation 
agencies--it does not have the authority to treat these agencies as 
regulatory extensions of the Department.
    The imposition of more and more highly detailed requirements on 
accreditors is dangerous because it distracts them from their central 
mission. Fundamentally, we want accreditors to ensure that each 
accredited institution offers a high-quality academic program and find 
evidence students are learning and receiving degrees of value. I hope 
reauthorization will provide an opportunity to refocus and rebalance 
the role of accreditors so that they focus on student learning and 
educational quality.
                               conclusion
    Because the Department is limited in its ability to require States 
to take an expanded role, it has increasingly turned to accreditors to 
fill this vacuum. Unfortunately, left unchecked, this trend threatens 
to make accreditors a regulatory enforcement arm of the Department.
    Sorting out these relationships between the members of the triad is 
the key to ensuring its effectiveness in the future, and in summary, my 
recommendations would be as follows:

    <bullet> First, the eligibility and certification function of the 
Department has grown dramatically and resembles a garden where some 
extensive pruning is necessary. It is important to make certain the 
Department has the staff it needs to accomplish its responsibilities 
and the expectations for institutions are clear, sensible and 
reasonable.
    <bullet> Second, the State role in the triad, although important, 
is uneven. It may be impossible to define responsibilities that all 
States will agree to follow so those responsibilities may have to be 
addressed by other actors.
    <bullet> Third, accreditors have been forced to take on an 
oversized role with respect to the triad and the Department of 
Education has significantly increased its control over them. Both are 
developments that merit careful review in the coming reauthorization.

    The members of this committee all know we are witnessing dramatic 
changes in almost every aspect of postsecondary education. Some of 
these changes will not last while others may be transformational. The 
years ahead will bring even more changes we can't begin to imagine. 
This means that, like colleges and universities, the triad will 
continue to evolve over the rest of this decade and beyond. We must 
ensure it has the capacity to adapt to these new and unpredictable 
developments as they occur.

    The Chairman. Thank you very much, Dr. Hartle.
    Now, we will move to Dr. Phillips. Dr. Phillips, welcome 
and please proceed.

    STATEMENT OF SUSAN D. PHILLIPS, Ph.D., PROVOST AND VICE 
  PRESIDENT FOR ACADEMIC AFFAIRS, UNIVERSITY AT ALBANY, SUNY, 
                           ALBANY, NY

    Ms. Phillips. Chairman Harkin, Senator Alexander, members 
of the committee.
    Thank you for the invitation to testify today. I have been 
asked to address the triad, the system of shared responsibility 
as a whole, who that is working for, and what improvements 
might be made with a particular eye to accreditation.
    To begin, I want to underscore what you will hear from all 
of us today, that the assurance of higher education quality has 
evolved, and continues to evolve, as the interest in higher 
education quality grow, as the students who enter our colleges 
change, and as the institutions themselves transform. I would 
like to use that framework of perennial evolution to offer 
three points about what works, and three points about what 
improvements can be made. First, what works.
    No. 1, American colleges and universities, the quality 
assurance that supports them, these are the flagship of higher 
education across the world. U.S. accreditation is the gold 
standard for quality assurance that is sought after and 
emulated across the globe. That is a critical marker of a 
system that is working and that is meeting the demands of a 
changing global environment.
    No. 2, the tensions in the system are healthy and important 
to sustain. There are many opportunities for one corner of the 
triad to pull more dominantly than another, and this creates 
challenges for the important and legitimate interests reflected 
in the other corners. That tension is essential lest we lapse 
into a system of responsibility without integrity, integrity 
without information, and information without improvement.
    No. 3, the actors must and do work together in a process of 
continuous improvement. The system works for the most part. 
When there are some significant outliers, which have been the 
focus of this committee, the system recalibrates itself, 
adjusts some of its elements, and restores our focus on the 
shared commitment to quality in higher education and the public 
good. Today's hearing is a good example of that continuous 
improvement process.
    So, what needs to be improved? Moving forward, this 
important work, I point to three areas for improvement.
    First, the system as a whole needs better communication 
among the elements about and for our common interests in higher 
education. Improved communication might well start with 
clarifying and articulating the roles and responsibilities of 
each member.
    Second, the system as a whole needs better data to guide 
decisionmaking. The critical issue here is not more data, but 
rather, better data; data that is of high quality, critical to 
the enterprise, and not a burden to collect.
    Third and finally, each of the actors can, and must, be 
expected to address the challenges within their own roles and 
responsibilities, as well as to collaborate with those in other 
corners toward common goals.
    My advice for each corner of the triad is as follows. For 
accreditation, our system affords diverse institutions the 
opportunity to be innovative and mission-driven, to engage in 
ongoing self-study and quality improvement, and to inform and 
be informed by knowledgeable peers. However, accreditors must 
keep apace of the evolution of students, and institutions, and 
models of learning. They need to work to ensure the continued 
attention to their review processes and the needs of their 
various publics. They must continue to respond to the shifts in 
the policy environment, and to the needs and responsibilities 
of other legs of the triad.
    Federal actors concerned with the substantial investment in 
student financial aid need to be mindful of the potential 
intrusiveness and burden of their actions, and of the very 
dampening effect compliance regulation has on nuance, 
flexibility, and innovation. They must continue to pursue how 
their interests can be addressed in the context of the rights, 
expertise, and interests of the other members of the triad.
    States focusing on actions within their borders need to 
address the challenges of increasing mobile and virtual system 
of education that may well have little connection to physical 
boundaries. They must continue individually and perhaps as a 
collective to participate in sustaining and even tension across 
all parts of the triad.
    I have offered additional details on many of these points 
in my written testimony, and so would conclude here with the 
observation that together, the triad is an effective system 
greater than the sum of its parts. It works to achieve the 
ultimate goal to ensure integrity and continuous improvement of 
the academic enterprise, to give students and their families 
the information that they need, and to ensure responsible use 
of public funds.
    Again, I thank you for the opportunity to speak with you, 
and I look forward to your questions and comments.
    [The prepared statement of Ms. Phillips follows:]
             Prepared Statement of Susan D. Phillips, Ph.D.
                                summary
    There are significant markers that ``the triad'' works: American 
educational quality and accreditation is recognized around the world. 
The tensions in the system are healthy and important to sustain. The 
actors must and do work in concert in a process of continuous 
improvement.
    Moving forward this important work, the system of shared 
responsibility for quality assurance in higher education, as a whole, 
needs better communication and better data, and each of the actors can 
and must be expected to consider anew the challenges within its role 
and responsibility as well as collaborate with those in the other 
corners toward common goals.
    Accreditors need to continue to keep apace of the evolution of 
students, institutions, and models of learning. They will work to 
ensure continued attention to their review processes and to the needs 
of their various publics. They must continue to respond to the shifts 
in the policy environment and to the needs and responsibilities of 
other legs of the triad.
    Federal actors need to be mindful of the intrusiveness and burden 
of their actions, and of the dampening effect compliance regulation has 
on nuance, flexibility, and innovation. They must continue to pursue 
how their particular interests can be addressed in the context of the 
rights, expertise, and interests of other members of the triad.
    States need to address the challenges of an increasingly mobile and 
virtual system of education that may have little connection to physical 
borders. They must continue, individually and perhaps as a collective, 
to participate in sustaining an even tension across all parts of the 
triad.
    Together, the triad is an effective system, greater than the sum of 
its parts, to achieve the ultimate goal to assure integrity and 
continuous improvement of the academic enterprise, to give students and 
their families information and protecting them from fraud, and to 
ensure the appropriate administration, accountability and responsible 
use of public funds.
                                 ______
                                 
    As a preface to my testimony, I note for the record that I am a 
professor and provost at the University at Albany/SUNY, that I've 
served the New York State Regents as an advisor in their accreditation 
system, and the American Psychological Association Committee (now 
Commission) on Accreditation. I'm a member of the joint Designation 
Committee of the National Register and the Association of State and 
Provincial Psychology Boards, and I have served on the National 
Advisory Committee on Institutional Quality and Integrity. I list each 
of those affiliations because while each has contributed to my 
experience in accreditation and quality assurance at the programmatic, 
institutional, and Federal level, I do not speak for any of them today.
    I've been asked to address how the ``triad,'' the system of shared 
responsibility as a whole is working, and what improvements, if any, 
could be made, with a particular focus on the roles and 
responsibilities of accrediting agencies and their impact on and 
coordination with States and Federal Government.
    The committee will have heard from others how the ``triad'' came to 
be, and some of the historical features of accreditor, State, and 
Federal actors in the system of higher education. Without repeating 
those features, I underscore that the assurance of higher education 
quality has evolved--and that it continues to evolve--as the sources 
and methods of providing higher education expand, as the interests in 
educational quality grow, as the resources devoted to higher education 
increase, as perspectives on defining ``quality'' are refined, as 
students attending our colleges change, and as the institutions 
themselves transform.
                       how is the system working?
    In addressing the matter of ``how is the system working,'' I'd like 
to point first to three markers.
    First, American colleges and universities, and the quality 
assurance system that supports them, are seen as the flagship for 
higher education across the world. U.S. accreditation is the gold 
standard for quality assurance. Together with the State and Federal 
elements of the triad, this system represents the integrity and 
continuous improvement of the academic enterprise, giving students and 
their families information and protecting them from fraud, and ensuring 
the appropriate administration, accountability and responsible use of 
public funds. These interests--integrity and improvement, information 
and protection, and accountability and responsibility, for short--align 
and work in concert for the benefit of society. Indeed, attention to 
these interests has been a hallmark of our system of higher education 
that is known for its quality and innovation around the world. It is no 
surprise that the quality assurance processes in the United States are 
sought after and emulated across the globe. This is a critical marker 
of a system that is working, and that is meeting the demands of a 
changing global environment.
    A second marker that the triad is strong is, oddly, the tension 
evident in the system. As the interests in quality assurance, and those 
who advance them, have grown and changed over years, there are many 
opportunities for one corner of the triad to pull more dominantly than 
another. This, of course, creates challenges for the important and 
legitimate interests reflected in the other corners, lest we lapse into 
a system of integrity without protection, protection without 
responsibility, or responsibility without integrity. All must be 
present, and the tension among the triad of actors and their interests 
is essential and healthy. The collaboration and compromise to address 
the tension makes for a system that continues to move forward.
    Finally, a third marker is that the system itself is one of 
continuous improvement. As the triad finds points of weakness, it 
adapts to make itself better. The system works, for the most part, in 
that accredited institutions and programs of higher education 
demonstrate academic integrity and commitment to improvement, inform 
and serve their students and families well, and provide responsible 
stewardship of the public dollars directed to them. However, there are 
significant outliers--some of which have been the focus of this 
committee. New institutions and new ways of approaching education and 
accreditation have challenged us to look again, to look anew, at the 
issues that give rise to failures in our system. Just as accreditation 
itself reflects not only adherence to standards, but also a commitment 
to continuous self-study and improvement, so does the larger system of 
shared responsibility. The ``triad'' recalibrates itself, adjusts some 
of its elements, and restores its focus, and that of American colleges 
and universities, on the shared commitment to quality in higher 
education and the public good. Indeed, today's hearing marks a 
significant instance of the important process of review and study, with 
the goal of improvement.
                        what could be improved?
    With the tension in the triad a mark of strength, it is also the 
tension that can be a source of improvement. None of the triad is an 
actor independent of the others; the actions of each member of the 
triad affect the others, and are affected by the others. Each member 
has an interest in and a responsibility to manage the system and its 
inherent tensions well.
    To begin, the system needs better communication among the elements 
about and for their common interests in higher education. Improved 
communication might well start with clarifying and articulating the 
roles and responsibilities of each member, including but not limited 
to:

    <bullet> Academic program quality;
    <bullet> Quality improvement;
    <bullet> Protection of various public interests;
    <bullet> Information for students and families;
    <bullet> Authorization to operate an educational enterprise;
    <bullet> Compliance with State and Federal law and regulation;
    <bullet> Fiscal integrity of Federal student financial aid; and
    <bullet> Responsible stewardship of Federal funding.

    Also needed for the system is better data to guide decisionmaking. 
The critical issue here is not more data, but rather better data--data 
that is of high quality, critical to the enterprise and not a burden to 
collect. Obviously, data that is not reliable and meaningful and 
clearly understood is not helpful to the enterprise. Moreover, data 
useful for some parts of the quality assurance enterprise (quality 
improvement, for instance) are not necessarily relevant to others 
(regulatory compliance, for instance). As new data needs have risen, 
often with slightly different nuances or differing definitions, there 
is not a corresponding decrease of data no longer needed. The quality 
and benefit of various data, and the cost to obtain it, should be 
reviewed across the triad. With greater common understanding of the 
roles and responsibilities of each member of the triad, such a review 
could reduce duplication of data requests and increase the level of 
trust within the triad that each member is conducting its business with 
due diligence and reliable and valid data.
    Since we are speaking today in a congressional context, it is 
important to note that it should not be a Federal responsibility to 
manage the triad; each of the triad of actors should be engaged 
participants with critical roles and responsibilities, and each should 
seize opportunities for improved contribution to the overall system. 
Much like the relationship of the States to the Federal Government, 
there is a sovereign responsibility for some elements of the system 
that resides in each leg of the triad. Attending to that responsibility 
is essential, as is respecting the responsibilities of the other legs 
and also working in collaboration toward common goals. Some 
recommendations for accreditation, for Federal actors, and for States 
are noted below.
    Accreditation. Accreditation verifies adherence to standards that 
are consistent with institutional mission and student needs, 
accomplished through a review undertaken by peers at other accredited 
institutions for the purposes of quality assurance and continuous 
improvement. This is a unique feature of the U.S. system: a voluntary, 
nongovernmental quality assurance system. We don't have a central 
ministry, nor do we mandate a single model of compliance. Instead, our 
system of accreditation affords for diverse institutions the 
opportunity to be innovative and mission-driven, to engage in ongoing 
self-study and quality improvement, and to inform and to be informed by 
knowledgeable peers. For specialized or program accreditation, it 
provides similar opportunity in specific areas of study and professions 
for whom specialized education and expertise is the focus.\1\
---------------------------------------------------------------------------
    \1\ For a quick comparison of institutional versus programmatic 
accreditation, please see ``Types of Accreditation'' at http://
www.aspa-usa.org/content/about-accreditation.
---------------------------------------------------------------------------
    Accreditors, themselves, have a commitment to continuous 
improvement, and are already on the path of making changes as they 
encounter needs for improvement, and as the institutions of higher 
education evolve. Recent examples include the adaptations made in 
online education and in considering competency-based education. 
Ensuring highly skilled peer review teams, making their processes more 
simple for institutions and the public to understand, and ensuring room 
for innovation and experimentation are also topics in discussion among 
both institutional and programmatic accreditors.
    Other changes for accreditors to consider come from shifts in how 
the triad works together: Accreditors are increasingly called upon to 
serve as compliance actors--to be the police, judge, and jury for the 
institutional behaviors expected by those in other parts of the triad. 
For example, accreditation has been called to address matters of 
transparency and consumer information. These are worthy matters to 
address but are ones that need to be taken up in the context of an 
accreditation process never meant to be a tool for accountability. The 
accreditors need to consider these matters in the context of what 
information is useful, both to the various publics served and to the 
quality assurance process. Accreditors have also been called upon to 
address whether the student outcomes of an institution are in line with 
expectations about responsible use of public funds. These also are 
important questions to ask, and it is of note that the accreditation 
community has sought to adapt to accommodate these kinds of 
perspectives, within the context of their scope and capacity. Yet other 
questions arise in the context of the evolution of how and where and 
when higher education occurs. Accreditors are undertaking discussion 
about their structure, scope and organization, in light of the 
diversity of educational activity and mission that has evolved. They 
are considering how more flexibility and nuance might be afforded in 
the quality review process, and how that process might be made more 
expedited and less costly. All of these are laudable and necessary 
initiatives, and ones that will continue to respond to the changing 
environment of students, institutions, and policy.
    Federal Actors. The Federal role in this enterprise has grown, 
corresponding to its growing investment in making available financial 
aid to students. There is, of course, reasonable Federal interest in 
the appropriate administration of the public dollars and the assurance 
that those funds are being responsibly used. This interest has created 
a need for a way to designate what programs and institutions would 
qualify for these funds, which, in turn, has resulted in reliance on 
accreditation serving as the assurance of academic quality and thereby 
a marker of responsible use. A process of recognition of accreditors 
has resulted, and a set of compliance criteria for accreditation 
agencies has been promulgated.
    While these would seem reasonable consequences of a legitimate 
interest of the Federal leg of the triad, concerns about these 
processes and criteria have been raised from a number of quarters, 
prompting calls for reconsideration of how the Federal interests play 
out in the system. Increasing calls have sounded from both 
accreditation agencies and institutions that point to the burden and 
intrusiveness of increasingly granular and prescriptive expectations 
from the Federal corner of the triad. Expectations about accreditor 
evaluation of institutional adherence to the Federal definition of the 
``credit hour'' is an example, where there is hot debate--on one side--
about Federal intrusion into what has been the province of educational 
institutions, and--on another side--about the need for protection of 
the Federal interest in insuring the integrity of the unit for which 
funds are awarded.
    Burden is also evident in a compliance review system that is 
extremely detailed, and offers little nuance in judgment. For instance, 
as enacted, there are 94 separate criteria for compliance, each of 
which entails detailed response and evidence by the accrediting agency. 
The criteria range in scope from ``Student Achievement'' to ``Public 
Disclosure of Accreditation Status.'' Evaluation against the Federal 
recognition criteria is undertaken via review of hundreds of pages by 
both Department staff and members of NACIQI.\2\ In these reviews, 100 
percent compliance with every one of those criteria is the only passing 
score. The change initiated just recently by the Department of 
Education that affords an opportunity for accreditation agencies to be 
evaluated on a critical subset of the various criteria has been a 
welcome experiment. It has been further suggested in the recent NACIQI 
recommendations that there be more opportunity for gradation in 
compliance judgments. Even at the crude level of ``outstanding,'' 
``satisfactory,'' and ``poor,'' compliance judgments could move away 
from the current all-or-none options. (Note that there is a similar 
call for gradations in the review processes among accreditors.)
---------------------------------------------------------------------------
    \2\ National Advisory Council on Institutional Quality and 
Integrity.
---------------------------------------------------------------------------

    There has also been concern about how matters of compliance have 
been defined outside of regulation. This has meant that some compliance 
expectations have not been subject to the discussion and concurrence 
process of negotiated rulemaking. In some cases, the resulting 
expectations--while intended to provide helpful guidance--become de 
facto standards for compliance that make little sense, or worse, for 
some sectors of the education community.
    The triad would be well served by a Federal review and 
reconsideration of statutory and regulatory strategies to insure that 
they not only satisfy the Federal interest in responsible use of the 
Federal dollar, but also recognize the rights, expertise, and interests 
of the institutions, their accreditors, and their States.
    States. States, of course, have broad interest in the quality of 
education for their citizens and occurring within their borders, and 
are most frequently cited with the role and responsibility to license 
and/or otherwise authorize the educational enterprises that operate 
within their boundaries. The emergence of multi-state higher education 
with locations online and on ground presents a new challenge to the 
States and to the providers of higher education who must navigate a 
highly individual and costly process of State-by-State authorization. 
Critical conversations and initiatives are already underway to consider 
how authorization processes might accommodate the growth of cross-state 
educational activity.
    Further, some States have extensive review and approval processes; 
others are more limited and focused in their oversight of higher 
education. One result of the diversity of State engagement is 
unevenness of attention, such that higher education in some States 
receives far more scrutiny than that in other States. While it is the 
right of States to establish their own priorities and processes, the 
variability of different States renders different pressures on the 
other two parts of the triad. In some instances, there is less concern 
about the viability of an educational institution, because of more 
stringent State scrutiny; in other instances, there is greater pressure 
to seek reassurance not fully afforded by the State that a new 
educational entity, for instance, has legitimate standing. The 
articulation and clarification of the roles and responsibilities of the 
various members of the triad, called for above, might well lead to 
conversations among the States, and across the triad, about how the 
pressures and concerns of each could be more evenly accommodated across 
the system.
                          concluding thoughts
    The conclusion to be drawn here is that ``the triad'' works. 
American educational quality and accreditation is recognized around the 
world. The tensions in the system are healthy and important to sustain. 
The actors must and do work in concert in a process of continuous 
improvement. Moving forward this important work, the system as a whole 
needs better communication and better data, and each of the actors can 
and must be expected to consider anew the challenges within its role 
and responsibility as well as collaborate with those in the other 
corners toward the ultimate goals to assure integrity and continuous 
improvement of the academic enterprise, to give students and their 
families information and protecting them from fraud, and to ensure the 
appropriate administration, accountability and responsible use of 
public funds.

    The Chairman. Thank you very much, Dr. Phillips.
    Now, we turn to Dr. Hill. Welcome and please proceed, Dr. 
Hill.

   STATEMENT OF MARSHALL A. HILL, Ph.D., EXECUTIVE DIRECTOR, 
     NATIONAL COUNCIL FOR STATE AUTHORIZATION RECIPROCITY 
                    AGREEMENTS, BOULDER, CO

    Mr. Hill. Thank you, Chairman Harkin and Ranking Member 
Alexander for inviting me. I am pleased to be here.
    During my career, I have had many opportunities to 
experience the workings of the triad from all three 
perspectives. As a faculty member, I served on teams that were 
preparing for reviews by both our specialized and regional 
accreditors and that process forced us to examine what we were 
doing, why we were doing it, explain it to others, and assess 
how well it worked. I am completely convinced that that process 
of accreditation review results in our better serving the needs 
of our students.
    As a State-level higher education officer, a person 
responsible for some degree of regulation in two States, I have 
had very good relationships with accrediting bodies of all 
types. I have several times worked very closely with them, 
especially in regard to institutions that were having 
difficulties. Frankly, there have been times when accreditors 
could bring about needed institutional changes that I, as a 
State officer, lacked the authority to require; the reverse has 
been true as well. We have worked together to improve 
institutions and deal with significant problems that directly 
affected students.
    For the Federal piece of the triad, I have served on three 
negotiated rulemaking panels for the U.S. Department of 
Education, twice focusing on accreditation and once on program 
integrity of the financial aid programs.
    As I continue my testimony, I am going to describe what the 
States do--I have been asked to focus on that--to fulfill their 
responsibilities on the triad, and I will provide my own views 
on how well I think it is working, and make some suggestions 
for improvements.
    What do States and their higher education agencies do as 
part of the triad? First, as my good friend Paul Lingenfelter 
indicated, there is a great deal of variety in that, but common 
roles for States are some of the following: to develop, and 
articulate, and promote the public policy agenda for higher 
education in the State. To work closely with the State's K-12 
and economic development partners. To authorize higher 
education institutions to operate in the State. To promote 
efficiency, quality, collaboration, and responsiveness by the 
State's postsecondary institutions. To develop State-focused 
higher education programs of all types. To assemble, analyze, 
and present statewide data on higher education.
    In many States, entities authorize new academic programs at 
public institutions and in some cases, at independent 
institutions as well. We often approve construction projects 
that rely on State-derived tax funds. We provide analyses and 
reports on higher education issues. Largely, we respond to 
complaints and try to keep the peace among everybody operating 
in the State.
    How well do I think States are doing as part of the triad? 
My personal view is that, overall, States do a pretty good job 
subject to the earlier comment about variability. Performance 
on all of the tasks that I just mentioned is remarkably varied, 
though, with some States doing very well on some things and 
considerably less well on others. Frankly, I do not think this 
is much different from the State's performance on other complex 
tasks. As in those other areas, there certainly is room for 
improvement.
    I have been a personal supporter of the country's triad 
approach for the following reasons. The triad provides a more 
comprehensive approach than any of the three partners could 
provide alone. It acknowledges our shared concerns and our 
shared responsibilities. It provides multiple tools to address 
diverse problems and hopefully the tools most appropriate to 
the task. It provides many opportunities for mutual 
reinforcement of our efforts. And finally, I cannot imagine our 
country supporting another approach.
    States have struggled in keeping up with their 
responsibilities under the triad. In most States, financial 
support for students and institutions has failed to keep pace 
with our rapid enrollment growth. Even in those States that 
have been fortunate enough to increase higher education funding 
over the last 10 years or so, they have been unable to keep per 
student funding at previous levels. Also, operational budgets 
for State oversight of higher education have been severely 
impacted lessening their resources for oversight and 
engagement.
    We frankly also have a high turnover in the leadership of 
State higher education systems. Somewhere between 20 to 25 
percent of the members of the SHEEO organization are new every 
year.
    Our current situation provides fundamental challenges for 
all three members of the triad. They basically, to me, boil 
down to two: how can we improve and broaden educational 
attainment while improving quality and while under financial 
stress? And how can we enable and support the innovation and 
flexibility in higher education that our country needs while 
retaining the ability to restrain and, if needed, punish those 
who abuse the system?
    There are points of common agreement among the triad. We 
all acknowledge that it is complex, sensitive, and we do not 
always get the results that we need. As previous witnesses have 
commented, sometimes our efforts are redundant, unduly 
stressing some institutions and adding to unnecessary costs. 
Frankly, despite oversight from three parts of the triad, we 
still have some unacceptable abuses and shortcomings.
    Our most sensitive points of stress require action on parts 
of all members of the triad. Institutions are aware of that. 
They are aware of the problems that we face, but frankly, they 
hope that they can be dealt with without any inconvenience to 
themselves. It is similar to how we feel about airport security 
lines. We all know we are not terrorists, but we know there is 
a reason for the line. We just think there ought to be a 
special one for us.
    We no longer seem able to meaningfully segment higher 
education and use that segmentation to increase sufficiency, 
focus attention, and support our goals. So I would offer the 
following suggested improvements to the triad.
    We need a better segmenting tool, a way to adjust the path 
for institutions of all sectors that have consistently 
demonstrated responsibility, financial stability, excellent 
student outcomes, find metrics on measures we care about, and 
so forth. For them, the focus should be on quality enhancement, 
the original goal of accreditation.
    Identifying institutions that require less attention from 
every member of the triad should be an approach employed by all 
members of the triad. For the less fortunate institutions, we 
need to shorten the period of time between comprehensive 
accreditation reviews and develop better, more graduated 
responses to poor performance. Echoing comments earlier, in all 
cases, the results of accreditation reviews need to be made 
more transparent to the public.
    With the Department, I would suggest that the Department 
needs to do a better job of providing any needed clarification 
to the rules that it issues. FERPA interpretations and recent 
program integrity rules are some good examples of that.
    The relatively new program integrity rules are prompting 
States to change statutes in significant ways, especially in 
regard to dealing with student complaints. Some States have 
already done that; more are going to be doing that in the near 
future.
    In closing, I want to thank you for the attention that you 
are giving to these issues. Those of us who work in State 
systems want to do our part to meet our country's higher 
education needs and challenges. We all know that higher 
education plays a key role in our success as a Nation. We care, 
we accept the challenges, and we want to contribute to 
solutions.
    Thank you for inviting me to provide my comments as part of 
your deliberations.
    [The prepared statement of Mr. Hill follows:]
             Prepared Statement of Marshall A. Hill. Ph.D.
                                summary
    I am today completing my first month on the job as executive 
director of a new organization taking a voluntary, regional approach to 
State oversight of postsecondary distance education. For the last 8\1/
2\ years I was executive director of the Nebraska Coordinating 
Commission for Postsecondary Education. For 11 years prior to that I 
worked at the Texas Higher Education Coordinating Board, the last 8 
years as assistant commissioner for universities and health-related 
institutions. Before that, I spent 17 years as a faculty member at five 
higher education institutions, large and small, public and private. 
I've had considerable personal exposure to the workings of the triad.
    States do many things as partners in the triad. Those activities 
include: developing and promoting a public policy agenda for higher 
education in the State; working with the State's K-12 agency and 
economic development partners on common goals; authorizing higher 
education institutions to operate in the State; promoting efficiency, 
quality, collaboration, and responsiveness by the State's postsecondary 
institutions; developing and administering State-focused programs of 
all sorts, including financial aid and transfer/articulation; assemble, 
analyze and present statewide data on higher education; monitor data 
sent by the State's institutions to the U.S. Department of Education; 
approve new academic programs at public institutions, and, in some 
States, at independent institutions; approve construction projects that 
rely on tax funds; provide analyses and reports on higher education in 
the State; and respond to complaints and keep the peace by helping 
resolve problems and conflicts.
    States do this work in various ways, with varying governance and 
regulatory structures. Overall they do a pretty good job, with some 
States doing very well on some tasks and less well on others. There is 
room for improvement.
    Changes in higher education has stressed each member of the triad. 
Possible improvements to the triad: develop a better tool to separate 
out for streamlined treatment by all members of the triad those 
institutions that consistently demonstrate responsibility, financial 
stability, and high metrics on measures we care about.
                                 ______
                                 
    Chairman Harkin, Ranking Member Alexander, and members of the 
committee: my name is Marshall Hill. I am executive director of the 
National Council for State Authorization Reciprocity Agreements--a new 
organization that is taking a voluntary, regional approach to State 
oversight of postsecondary distance education. Today marks the 
completion of my first month in that job. For the prior 8\1/2\ years I 
was executive director of the Nebraska Coordinating Commission for 
Postsecondary Education--a fairly traditional State-level coordinating 
board. Just before that, I was assistant commissioner for universities 
and health-related institutions at the Texas Higher Education 
Coordinating Board, working with 35 public universities and 8 health 
science centers that enrolled about 500,000 students. Related to that 
statewide work, I have just completed a year as chair of the executive 
committee of the State Higher Education Executive Officers association 
(SHEEO), the organization led by my good friend and colleague Paul 
Lingenfelter. Earlier in my career I was a college and university 
faculty member, teaching music and conducting choirs and orchestras at 
five different institutions: large and small, public and private.
    During my career I have had many opportunities to experience the 
workings of the triad. As a faculty member I served on teams preparing 
for reviews by our institutional and specialized accrediting bodies. 
That process forced us to re-examine what we were doing, explain why we 
were doing it, and assess our effectiveness. I am completely convinced 
that the work we did with our accreditors resulted in our better 
serving the needs of our students.
    As a State-level higher education officer, I have had very good 
relationships with accrediting bodies of all types. I have several 
times worked very closely with them, especially in regard to 
institutions that were having difficulties. There have been times when 
accreditors could bring about needed changes that I lacked the 
authority to require; the reverse has been true, as well. We have 
worked together to improve institutions and deal with significant 
problems directly affecting students.
    For the Federal piece of the triad, I have served on three 
negotiated rulemaking panels for the U.S. Department of Education, 
representing the country's State-level higher education agencies. Two 
of those panels focused on rules affecting accreditation; the third 
dealt with the integrity of Federal financial aid programs. I also 
provided testimony to the National Advisory Committee on Institutional 
Quality and Integrity (NACIQI) during its recent re-examination of the 
Department's relationships with accreditors.
    As I continue my testimony, I am going to describe what the States 
do to fulfill their responsibilities under the triad, provide my views 
on how well I think the triad is working, and offer some suggestions 
for improvements.
 what do states and their higher education agencies do as part of the 
                                 triad?
    First, there is a good deal of variance in that. But common roles 
are:

    <bullet> Develop, articulate and promote a public policy agenda for 
higher education in the State;
    <bullet> Work closely with the State's K-12 and economic 
development partners on common goals;
    <bullet> Authorize (through various means) higher education 
institutions to operate in the State;
    <bullet> Promote efficiency, quality, collaboration, and 
responsiveness by the State's postsecondary institutions;
    <bullet> Administer, distribute, or make recommendations about 
State funding for public higher education;
    <bullet> Develop and administer State-focused higher education 
programs of all sorts, including student financial aid and transfer/
articulation;
    <bullet> Assemble, analyze and present statewide data on higher 
education;
    <bullet> Monitor data sent to the U.S. Department of Education by 
the State's institutions;
    <bullet> Authorize and sometimes promote development of new 
academic programs at public institutions (and, in some States, at 
independent institutions);
    <bullet> Approve construction projects that rely on State-derived 
tax funds;
    <bullet> Provide analyses and reports on higher education's 
challenges, opportunities and performance to the legislature and 
Governor; and
    <bullet> Improve coordination across all higher education in the 
State; and respond to complaints and keep the peace by helping to 
resolve problems and conflicts.
              how well do states do as part of the triad?
    State structures for higher education oversight are varied, and 
doing well is linked more to leadership and the ability of key 
policymakers across the political spectrum to work collaboratively than 
to a particular State structure (coordinating board, governing board, 
etc.). My view is that overall States do a pretty good job. That said, 
performance on all of the tasks I've outlined is varied, with some 
States doing very well on some things and considerably less well on 
others. Those particulars change over time, of course. I don't believe 
this is much different from the States' performance on other complex 
tasks. As in other areas, there is room for improvement.
                    personal views on the ``triad''
    I have been and remain a strong supporter of our country's 
``triad'' approach to accountability and quality assurance in higher 
education, for the following reasons:

    <bullet> The triad provides a more comprehensive approach than any 
of the three partners could provide alone;
    <bullet> It acknowledges shared concerns, shared responsibilities;
    <bullet> It provides multiple tools to address diverse issues 
(hopefully, the tools most appropriate to the task);
    <bullet> It provides possibilities for mutual reinforcement; and, 
finally;
    <bullet> I can't imagine our country supporting another approach.

    As a State-level higher education officer, I've used the authority 
and bully pulpit of my position to develop and enforce important State 
polices, further a State and student (rather than institutional) 
perspective, and shine lights on results, both good and bad. I've 
relied on the Federal Government for policies and funding for financial 
aid, support for important education initiatives, and valuable data on 
our institutions and students. I've relied on accreditors to assert, 
assess, and uphold quality and help deal with problems.
    Maximizing the many potential benefits of the triad is difficult, 
and changes in higher education have stressed each component. All three 
parts of the triad have struggled in response to rapid changes in 
delivery methods and in institutional missions, structure, focus and 
control.

    <bullet> Accreditors have assumed roles outside their initial 
purposes of assuring and enhancing quality.
    <bullet> The Federal Government has had to deal with explosive 
enrollment growth, the expansion of the for-profit sector, and 
increasingly intense political pressures.
    <bullet> States have struggled, as well. In most States, financial 
support for students and institutions has failed to keep pace with 
rapid enrollment growth. Even those States fortunate enough to have 
increased funding over the last 10 years or so have been unable to keep 
per-student funding at previous levels. In many States, future funding 
prospects look even worse. Operationally, in many States statutes fail 
to deal with current needs and practice, and many State higher 
education agencies have had to deal with reduced funding, lessening 
their resources for engagement and oversight. We also have high 
turnover in the leadership of State higher education agencies. Each 
year there is about a 20 to 25 percent turnover in the membership of 
the State Higher Education Executive Officers association. In some 
States the average tenure of 4 to 5 years is shorter, presenting a real 
problem. In the most effective States, the tenure of State leaders 
tends to be longer.
fundamental challenges for all three members of the triad--indeed, for 
                        all of higher education
    <bullet> How can we improve and broaden educational attainment 
while improving quality? And while under financial stress?
    <bullet> How can we enable and support the innovation and 
flexibility in higher education that our country needs, while retaining 
the ability to restrain and, if needed, punish those who abuse the 
system?
                       points of common agreement
    <bullet> Interactions between members of the ``triad'' are complex, 
sensitive, and don't always yield the results we need. We're all 
imperfect.
    <bullet> Efforts of triad members are sometimes redundant, unduly 
stressing some institutions and adding to unnecessary costs (which are 
often passed on to students).
    <bullet> Despite oversight from the three parts of the triad, we 
still have unacceptable abuses and shortcomings.
    <bullet> Although most developed countries would take a centralized 
approach to solving these issues, rightly or wrongly, no one in higher 
education, the States, or the accrediting bodies is arguing for that 
here.
                    most sensitive points of stress
    <bullet> Almost all institutions assert that they place a high 
premium on the interests of students, don't think they are part of 
``the problem,'' and have little tolerance for the processes and 
procedures necessary to restrain those who abuse the system. That is 
especially true of public and independent, nonprofit institutions. Most 
institutions want the ``problems'' that they hear about to be solved, 
but they want it done at no inconvenience to themselves.
    It's similar to how we feel about airport security lines. We 
understand why we have to put up with the inconvenience, but because we 
know we're not terrorists, we wish we didn't have to deal with it. We 
think there should be a line for those of us that are just fine, and a 
separate line for the people we should worry about.
    <bullet> To some extent, earning accreditation by a U.S. Department 
of Education ``recognized accreditor'' is supposed to provide that 
``separate line.'' With all the changes to American higher education 
previously described, and with accreditors carrying out tasks that to 
institutions seem increasingly regulatory, the special line doesn't 
seem so special anymore. We no longer seem able to meaningfully segment 
higher education and use that segmentation to increase efficiency, 
focus attention, and support our goals.
                       improvements to the triad
    <bullet> We need a better segmenting tool--a way to adjust the path 
for institutions (of all sectors) that have consistently demonstrated 
responsibility, financial stability, excellent student outcomes, high 
metrics on measures we care about, and so forth. For them, the focus 
should be on quality enhancement--the original goal of accreditation. 
Identifying institutions that require less attention should be an 
approach employed by all members of the triad.
    <bullet> For less fortunate institutions--institutions from all 
sectors--we need to shorten the period between comprehensive 
accreditation reviews and develop better, more graduated responses to 
poor performance. In all cases, the results of accreditation reviews 
need to be made more transparent to the public.
    <bullet> Some accrediting bodies accredit a very wide range of 
institutions--public, private, large, small, for-profit, and so forth. 
Rationalizing that breadth under the argument that those diverse 
institutions share a commitment to certain high-level principles is one 
thing. Developing standards applicable to that wide range, without 
making them so nebulous as to be almost meaningless, or impossible to 
enforce, is another.
    <bullet> The Department needs to do a better job of providing any 
needed clarification to the rules it issues. FERPA interpretations and 
recent program integrity rules are good examples of that. Some of my 
recent work has convinced me that the Department needs to re-examine 
the ways in which it assesses institutional financial status as a 
condition for participation in Federal financial aid programs.
    <bullet> The relatively new program integrity rules will prompt 
some adjustments by the States, in particular in regard to matters such 
as dealing with student complaints. Several States have already made 
statutory modifications; others will likely follow.
                               in closing
    Thank you for the attention you are giving to these issues. Those 
of us who work in State systems want to do our part to meet our 
country's higher education needs and challenges. Higher education plays 
a key role in our success as a Nation. We care, we accept the 
challenges, and we want to contribute to solutions. Thank you for 
inviting me to provide my comments as part of your deliberations.

    The Chairman. Thank you, Dr. Hill. Thank you all very much 
for excellent written testimonies and also your verbal 
presentations.
    We will begin a round of 5-minute questions. Let me ask 
this. Dr. Hartle, you ask a central question: what should the 
primary responsibilities of each player be in this? Can each of 
you expand on that a little bit?
    What are the primary responsibilities of each one? And be 
succinct about it. Dr. Hartle, let us start with you, since you 
mentioned it.
    Mr. Hartle. With respect to the Department of Education, 
the central role is to make sure that the institutions have the 
financial strength and the administrative wherewithal that they 
will not suddenly go out of business and leave taxpayers and 
students holding the bag.
    With respect to the States, historically the States have 
been responsible for indicating that institutions are eligible 
to operate in that State. The States, as has been indicated, 
are sometimes reluctant to get involved with the Federal 
Government and to do much about it. In many States, that 
requirement is just, simply stated, whether they have a 
business license to operate. There is no educational connection 
to it at all. I think the question for the committee here is: 
do we want the States to play that role, and is there a way to 
make them play that role if they do not want to?
    With accreditation, I think they ought to have a laser-like 
focus on quality and quality assurance so that the Federal 
Government knows that the money is going to schools that have a 
strong, valuable academic program.
    The Chairman. Dr. Lingenfelter.
    Mr. Lingenfelter. I will begin with accreditation.
    I think the academic community and accreditors are the 
arbiters and the definers of academic quality. I think the most 
important thing that that community can do is to articulate 
coherent, meaningful standards for what we expect to emerge 
from a higher education program, and they should hold 
institutions accountable to those standards. That needs to be a 
voluntary process, not a coerced process, but I think it is 
critically important. It is what the academic community should 
do.
    States, I think, have the primary role of consumer 
protection, and they have the capacity to deal with those 
issues more effectively than either accreditors or the Federal 
Government. They need to do a better job of that and actually, 
the advent of distance education, I think, is creating a force 
that will encourage States to play a more effective role in 
this area. Because when institutions are operating in multiple 
States, as we have all observed, the complexity and burden of 
multiple State authorization is just untenable. The way to deal 
with that is to have States take the responsibility for their 
own institutions, and win the confidence of other States in 
their oversight so that they can have reciprocal authorization 
all around the country. That is something the States are 
working to contribute.
    The Federal Government's role, I think, is basically to 
ensure the integrity of its own investments in programs, 
working with the States and with accreditors. It has 
capabilities and data, and in financial oversight that exceeds 
the capacities of the other two players in the triad. It has a 
very important role in defining the terms of engagement of 
these programs and how they should operate in recognizing 
appropriate academic standards and standards of student 
success.
    The Chairman. Very good.
    Mr. Lingenfelter. Thank you.
    The Chairman. Dr. Phillips.
    Ms. Phillips. Thank you. I would start with the Federal 
role. I concur with what my colleagues have said. The Federal 
role is one of responsible use of the Federal dollar.
    States, I think of as the consumer protection operation 
within a State. And the accreditation function, I think of as 
focused on academic integrity and improvement for ensuring a 
diversity of programs and missions. As you know, those 6,000 
institutions, not one of them is the same as the next one over. 
Trying to ensure quality, academic integrity, and improvement 
across a very diverse system.
    The Chairman. Good. Dr. Hill.
    Mr. Hill. I generally agree with the comments of my 
colleagues.
    For the Federal side, I agree. Financial oversight and the 
provision of financial support to the students in our country 
is a principle role for the Federal part of the triad.
    I would echo Dr. Hartle's call for the Department to make a 
review of the process by which it assesses the financial 
responsibility of institutions and their capabilities 
participating in title IV.
    I agree that accreditors need to focus on quality control 
and assurance, and on improvement of institutions. I will give 
a little fuller answer for the States, since I have spent about 
the last 20 years working in two State systems.
    I agree that consumer protection is our principle focused 
goal, so long as we define that as something more than just 
responding to student complaints. It is a proactive process, 
not just a reactive process as well.
    States are also charged to supply funding for their public 
institutions to allow what, as Senator Alexander indicated 
earlier, accessible support to institutions that are 
affordable.
    And a third role, I think that is very important for State 
agencies of higher education are to promote collaboration of 
institutions within the State, to provide opportunities to 
cooperate, collaborate, and build efficiency.
    The Chairman. Thank you very much. Thank you all for those 
very succinct answers.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    Looking at the governance of 6,000 very different 
institutions, as Dr. Phillips said; from Washington we see, as 
Senator Harkin said, the Higher Education Act was authorized in 
1965. Eight reauthorizations like the one we are contemplating 
now, each of them with regulations that are written over the 
next 2, or 3, or 4 years to implement the laws; on top of that, 
what we call sub-regulatory guidances. We see that, looking at 
that from here.
    Looking up from the point of view of a student or a faculty 
member at any of these institutions, we might see a dean. We 
might see a vice president. We might see a president. We might 
see a board of trustees. We would probably see a Governor, and 
a legislature, and a State regulatory agency. And then we see 
the U.S. Secretary of Education, and Congress, and the 
President all regulating this student and faculty member.
    It is pretty remarkable that this system that we have in 
the United States is so different from what we have in Europe 
or other parts of the world where we basically have State-run 
institutions with States managing what goes on, and it is very 
different from our K through 12 system.
    We basically have a marketplace of 6,000 institutions, and 
the money follows the students to the institutions of their 
choice, and institutions fight to keep their autonomy, which is 
a word educators use, but nobody else much uses.
    Here is my question, I suggested in my comments that maybe 
it would be a good idea to start from scratch with this 
reauthorization; if not for the whole reauthorization, at least 
for parts of it. Let us see if we can agree on the objectives 
we have then write a new law. Repeal all the old law and have 
new regulations written with our oversight. Not as an 
ideological exercise, but simply in the way someone would weed 
a garden before planting a new crop because we all know what 
happens.
    During all these eight authorizations, we have well-
intentioned ideas. We just pile them on top of the existing 
well-intentioned ideas. To compliment Senator Warren, before 
she became Senator Warren, she had an idea that was similar, it 
seems to me, about mortgage applications. We all know if we buy 
houses, that you have to fill out all this stuff and you do not 
really read it, and it is not in declarative sentences, so you 
cannot tell what it says, and it does not really protect the 
consumer at all. Her idea was a one-page mortgage application, 
and I think the consumer bureaus are going to come up with 2\1/
2\ pages. I think that will be welcome.
    My question, Dr. Hartle, you have seen this from a long 
time. As Senator Harkin said, you were here as Senator 
Kennedy's staff person when Senator Harkin was down there and I 
was the Education Secretary. So you have seen a lot of this. Is 
that a practical idea?
    Would it be practical to start from scratch, not in an 
ideological way? We have to do this together or it would not 
work. To gradually say, ``Here are our objectives,'' and then 
write plain language to do it, and then give the Department a 
chance to write regulations in, hopefully, declarative 
sentences about what they need to do, and take a fresh look. 
Would that do a better job or is that just a dream that is 
unpractical? I would be interested in the comments of any other 
member as well.
    Mr. Hartle. I think, Senator, that is the only reasonable 
way for you to proceed with respect to the triad. I will not 
comment on other parts of the Higher Education Act because we 
are focused here on the triad.
    The triad, Part H of the Higher Education Act of Title IV, 
has attracted new requirements like a ship passing through the 
ocean attracts barnacles. We sometimes get away from what the 
central purposes are and what we are really trying to 
accomplish.
    It has really been 20 years with the 1992 reauthorization 
when Congress last took a very clear look at the triad. As the 
Chairman and the Ranking Member will both recall, in the late 
1980s, there was an enormous number of student loan defaults 
and Congress had to step-in to clarify what needed to be done 
to make sure that only high quality institutions were 
participating in the Federal student aid programs.
    Before 1992, the triad was rarely talked about, but in 
1992, the triad became a central focus of the reauthorization, 
and all of the actors were handed new roles. One particular 
part of it, the State role, proved to be exceptionally 
controversial and Congress ended up repealing 2 years later. A 
lot of the provisions dealing with financial responsibility and 
accreditation, date to that time and have only been added-on.
    I think going back and taking a fresh look at it, as I 
suggested, perhaps by getting an independent third party review 
on institutional eligibility, would give you a very good 
baseline from which to consider changes.
    Senator Alexander. My time is up, Mr. Chairman. I would be 
interested in any other comments.
    The Chairman. Is it fair to ask who that third party might 
be?
    Mr. Hartle. I would think that you might want to reach out 
to, frankly, a management consulting firm that does not have in 
any way, shape, or form, a stake in the outcome.
    Congress in 1998 fundamentally changed the Department of 
Education when it created a performance-based organization who 
would be responsible for processing student aid. Before 1998, 
that part of the Department was of very uneven quality. We 
would have years when the financial aid forms would be 
published with mistakes in them.
    Congress said, ``We want a performance-based organization. 
This is how we define a performance-based organization.'' The 
Department, under both Republicans and Democrats, has done a 
much stronger job running a much larger suite of financial aid 
programs than, frankly, it had done in the past.
    I think there is actually a precedent in reauthorization 
for Congress saying, ``We need to rethink the basic approach 
here and make sure it is going in the direction that we want.'' 
I think both the 1992 experience and what you did in 1998, 
would give you a basis for thinking about how to proceed to 
develop a package of recommendations.
    The Chairman. Thank you very much.
    Dr. Lingenfelter, did you want to followup? I have to move 
along and get to other Senators, but go ahead.
    Mr. Lingenfelter. Just one quick comment, I think the 
challenge facing the Federal Government is in the diversity of 
practice, and opinion, and function among the States and among 
accreditors. If accreditors can become more coherent in the way 
they look at academic standards, and the States can become more 
coherent in the way they perform their role in the triad, it 
can work better. I think there is some hope of getting that 
done, but I do not underestimate the difficulty.
    The Chairman. Thank you all very much.
    I have, in order, Senator Franken, Senator Warren, Senator 
Bennet, Senator Baldwin, Senator Hagen, Senator Murphy, and 
Senator Whitehouse.
    I turn to Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman.
    I am glad we are here for the kick off hearing on the 
reauthorization of the Higher Education Act.
    I apologize for missing a large part of your testimony, 
because Senator Whitehouse and I were in a judiciary meeting, 
but I read it last night. A lot of you talked about the changes 
that are happening in higher education now as we speak and that 
are going forward. The role--obviously we are talking about the 
triad, so we are talking about the various roles that different 
parties play.
    Dr. Phillips, you talked about how great our universities 
are and how we have universities that are the envy of the 
world, and that is good news. A part of the bad news is just 
how much it cost kids--and students, all students--to go to 
college, and college affordability has been a focus of mine 
since I got to the Senate. I go around the State and I talk to 
students, and students now are working 20, 40, 60 hours, full-
time jobs while they are going to school.
    There is a lot that we need to fix. As the nature of higher 
education is changing, one of you wrote, or maybe two of you 
wrote, how President Obama said that basically people are going 
to need some postsecondary education, and I think we have to 
look at what that means: ``some postsecondary education.'' I am 
a big fan of looking at 2-year colleges as a platform, a 
pathway, and not a ceiling as many parents do.
    Now, my question is, I want to just throw it open. It seems 
to me the States are laboratories and that if we could--part of 
our role in the Federal Government is to try to incentivize--
find a way to incentivize States to solve some of these 
problems or attack some of these problems creatively and maybe 
do a competitive grant program to that end.
    I was kind of wondering what factors you would--if you did 
a competitive grant program--award those grants on. A number of 
you talked about K through 12 alignment with postsecondary. My 
feeling is the use of 2-year colleges to fill the skills gap.
    Can you just speak to, if you were designing something like 
that, what factors would you be looking for from the States to 
address these issues of affordability and of effectiveness of 
the school in terms of preparing people for the workforce?
    Dr. Hill.
    Mr. Hill. There is some precedent for that. The Department 
used to run a program called FIPSE, which provided the 
opportunity for both institutions and others to apply for funds 
to innovate. It has not been funded all that much in recent 
years, and it became, frankly, subject to earmarks, but re-
instituting something like that.
    As far as what you should reward, I think movement among 
the segments of the population that have not previously 
participated in higher education is the key. We cannot just 
keep educating people like ourselves. We have to educate people 
who are the first in their families to attend college, 
sometimes the first in their families to graduate from high 
school.
    A few of the projects that I would put high on my list are 
significantly improved remediation. Remediation is a 
significant problem in this country. Students who enter 
colleges and universities and are found needy of remediation 
have a horrendous eventual success rate.
    Certain places know how to do it better, and by doing it 
better and bringing that to scale is something our country 
really needs. That would be one thing.
    Senator Franken. Of course, that is getting our K through 
12 improved, is really part of what that is about.
    Mr. Hill. Yes, sir, it is, but not just that. A large 
portion of students who show up on community college campuses 
and are tested needing remediation are adults. They have been 
out of high school for 6, 8, 10, 12, 20 years and they need 
help in the same way that the student who did not get what he 
or she needed in high school, and we do not do a good job at 
that.
    Senator Franken. Yes. Is that OK, Mr. Chairman?
    The Chairman. Go ahead.
    Mr. Hartle. I want to pick up on your comment about 
community colleges. I think they are an extraordinary asset in 
American higher education. It is about 40 percent of our 
students enrolled there and I think sometimes they get short-
circuited in the discussions of Federal policy. We are very 
enthusiastic about engaging in those discussions.
    With respect to your proposal about sort of an initiative 
that would involve the States on issues like affordability, and 
value, and new forms of postsecondary education, I think there 
are two questions that would immediately come up, sir.
    One, would private colleges and universities be eligible to 
participate in it? If the money goes to the States, many State 
governments do not particularly want to include private 
colleges and universities in those sort of activities because 
they want to keep the money for the State institutions. You 
have a large number of excellent private colleges and 
universities in Minnesota, and you would not want them to be 
excluded. So that is an issue you would have to think about.
    The second part would be if you were to think in broad 
terms, and I think it is exactly right to think in broad terms 
of affordability in new forms and quality. If you were to think 
in broad terms to prevent the Department of Education from 
imposing their particular educational agenda on States, this 
has been an issue that we have had many times with the 
Department of Education, not just this Department of Education. 
Given a choice, the Department of Education will say, ``We want 
you to look at new forms of postsecondary education and these 
are the ones we are interested in.''
    Senator Franken. Right.
    Mr. Hartle. I think if we are going to treat the States as 
laboratories, let the ideas come up, we need to make sure that 
the Department of Education can push an agenda down at the same 
time.
    Senator Franken. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman.
    I appreciate all of you being here today to talk about the 
shared responsibility of the States, the Federal Government, 
and the accrediting agencies. I assume we all have the same 
goal, and that is a high quality education for our students. If 
students cannot afford to go to college, they are not going to 
get that high quality education.
    There are a lot of problems in higher education today, but 
surely one of the biggest is affordability. Our students are 
drowning in debt. One in five households now carry student loan 
debt. The burden is especially crushing for young Americans. 
They are now trying to deal with total student loan debt of 
about $1.1 trillion. And as long as college costs continue to 
rise without any real limitations, students are going to be 
forced to finance their educations with more and more debt.
    Colleges with the help of State and Federal grants may be 
able to shield the lowest income families from tuition hikes, 
but middle-income families are really getting hit, and they are 
getting hit hard. A student who goes to a public university 
today, adjusted for inflation, will pay about 300 percent of 
what her father would have paid a generation ago.
    My question is: if we are going to work through the 
regulation of higher education and we are going to work through 
the combined efforts of Federal, State, and accrediting 
agencies, then whose job is it to ensure that the colleges are 
affordable? Who does that?
    Mr. Hill.
    Mr. Hill. I think we all have to do it, but as a former 
State person, I think it is a major responsibility of the 
State, especially for its public institutions. That is 
sometimes challenging.
    I think you are probably all aware that State funding for 
postsecondary education has failed to keep up, at least on a 
per student level, as our enrollments have increased. Those 
costs have largely been shifted to students.
    Frankly, students are not without blame themselves. They 
add to their own costs. A flagship institution in my former 
State allowed students to vote for an increase in their student 
recreation fee from $260 a semester to $400 a semester to 
finance the rebuilding of an outdoor recreation center which 
featured a climbing wall. My commission recommended that the 
legislature, State legislature not approve that, but the 
legislature did.
    We need to have greater courage about when we should say no 
about things which add to costs and we have not been doing a 
very good job of that.
    Senator Warren. Surely, Dr. Hill, you are not going to say 
the students have been voting for these increases in college 
costs all along.
    Mr. Hill. No, they have not. No. Students have not, but 
they have added to it. They have added to it upon occasion.
    Senator Warren. All right. So we have the States. You think 
part of this is the students.
    Mr. Lingenfelter, you wanted to add to this?
    Mr. Lingenfelter. I think this is a huge issue that the 
States need to participate in. I want to pick up on Senator 
Franken's comments about a partnership.
    There was another program that is no longer funded called 
LEAP, which was a partnership between the Federal Government 
and the States to encourage the States to put funding in 
student aid, and also to provide student aid funds that are 
proportionate to their tuition charges, and I think that kind 
of program needs to be reconceptualized.
    Some members of my association and I have worked on a way 
that would create incentives for States to maintain State 
funding to provide financial aid for the most needy students to 
cover tuition and in partnership with the Federal Government.
    The fact is that a Pell Grant and a substantial workload 
only pays living costs.
    Senator Warren. No, I understand this. Let us just push on 
this point for a minute, then, about the States, and the State 
funding, and the responsibility of the States.
    I understand that just in the last year. State funding for 
higher education has dropped by about 9 percent of the 
proportion that the States pick up at the State universities in 
supporting their students.
    Back at the beginning of the 2000s, they were picking up 
about 70 percent of the costs; the students were picking up 
about 30 percent of the cost, which meant that for every dollar 
the students were putting in to pay for their education, the 
States were putting in a little over $2. Now, that has dropped 
to 50/50 in barely over a decade.
    The States have clearly withdrawn a lot of support from 
public universities, and this seems to me to be a key point on 
affordability. If we do not have access to those State 
universities, then how is college going to be affordable for 
our kids? I think I am over. Please.
    Mr. Lingenfelter. Those numbers come from my association.
    Senator Warren. I was just going to give you credit. I 
apologize for not doing so earlier.
    Mr. Lingenfelter. No, no. Let me comment on it. The fact is 
that State funding has kept pace with inflation over the last 
12 years. It has kept pace with enrollment growth. It has not 
kept pace with the combination of the two.
    Enrollments have increased over 35 percent since the turn 
of the century and that has been the fastest rate of enrollment 
growth since the Baby Boom entered college. The problem is that 
the State funding has actually grown, but enrollments have 
grown faster. Inflation has grown faster, and the pressures on 
the State Government, just like the pressures on the Federal 
Government, force us to make a lot of hard choices. We need to 
come together in partnership to deal with that issue in ways 
that are more effective than we have achieved so far.
    Senator Warren. Thank you, and I hope we can pursue this 
more. I just want to say on this.
    I went to a commuter college. It cost $50 a semester. I 
went to a State university for law school. I went to school at 
a time when America invested in public education for its kids. 
I benefited from that. I am part of a whole generation that has 
benefited from that. I fear that we are losing that and if we 
lose that, there is nothing else that saves higher education. 
We lose our future.
    Thank you.
    The Chairman. Thank you, Senator Warren. Let us see, 
Senator Bennet, Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Mr. Chairman and Ranking Member 
Alexander for convening this hearing and the series to follow 
to get us started with the reauthorization of the Higher 
Education Act.
    I was able to check with a number of Wisconsin higher 
education stakeholders in preparation for this hearing and they 
provided me with their thoughts on the triad and the oversight 
and efficiency of the Federal student loan program.
    They also, very rightly, brought the focus back to our 
students. How will students benefit from changes that we are 
discussing today? How will students be impacted if we move in 
one direction or the other?
    I would like to read you just one short excerpt from an 
email I received from a financial aid officer in my State,

          ``The incentives or disincentives for whatever is the 
        concern du jour--high tuition, low graduation rates, et 
        cetera--as important as these topics are, if we tie 
        student aid to something that is outside of a student's 
        control, there will be unintended consequences that 
        negatively impacts students. Do we need to address the 
        high cost of education, cost transparency, graduation 
        rates, debt levels? Yes, yes, yes and yes, but we need 
        to figure out another way to do this without negatively 
        impacting students.''

    I am wondering what our witnesses' reactions are to this 
particular piece of input. Specifically, this call to focus on 
the students' needs as we talk about institutional changes to 
financial aid. Why do we not just go across the panel?
    Mr. Lingenfelter. I think student achievement, student 
success has to be the focus. We need to focus on quality. We 
need to find ways of getting sufficient aid to students so they 
can really enroll in an academic program.
    The National Student Clearinghouse did a study last year of 
completion, and the relationship between completion and full-
time study is very strong, and the correlation between the 
failure to complete and part-time study is very high.
    What we need to do is find enough ways to put resources 
behind students to enable them to really enroll and succeed in 
a higher education program.
    Mr. Hartle. I agree with what Paul has just said. I think 
one of the most basic lessons of public policy is that we 
create incentives and individuals and organizations will react 
to them. It does not matter whether it is healthcare, higher 
education, or the defense industry; it is always the same 
thing. Incentives are created and people respond.
    The challenge will be to create the proper incentives for 
students and for institutions. The President has talked about 
this as part of his recently announced plan, and I think that 
is something that this committee will need to look at going 
forward.
    Part of it is going to be a need for the committee to 
define what incentives it wants to create, which direction it 
wants to go in, and what will be the primary things you want to 
see as an accomplishment of this reauthorization. That will be 
a prerequisite task that we would be happy to work with you on.
    Ms. Phillips. Thank you. What a student gets out of this is 
squarely in the land of the accreditor: the quality assurance 
of the program, of the institution, and the continuous 
improvement of that.
    Coming into an institution, of course what you are 
concerned about is access and access is so predicated on 
resources and the ability to migrate into education when it is 
possible, and also on success. In many ways, the quality of the 
educational institution is not simply what goes on in that 
institution but also what it prepares the student to do next.
    I would offer one caution in thinking about this as you go 
forward. There is a great deal of discussion about graduation 
rates, and while that is a nice metric, it does not necessarily 
mean success. You would not want to alter the incentives around 
increasing more graduation simply by diluting what it takes to 
graduate. Quality as in both access and success.
    Mr. Hill. I would suggest that a focus on students and 
their needs is one of the defining characteristics of State 
systems rather than an institution-focused approach. Focus on 
the State's perspective, the State's needs for an educated 
populace and students, and States can do a lot to adjust their 
incentives.
    In a formula-funded State in which I used to work, an 
institution benefited the most from a student who came needing 
a great deal of remediation, was kept in remediation for a long 
time, and then was a part-time student for a much longer time. 
And whether they graduated or not, made no difference 
financially to the institution; in some cases, they were better 
if they did not.
    We need to adjust that. We need to reward institutions for 
helping students get through in a timely way, and pay them for 
doing that, offering an incentive for them to take the actions 
needed.
    Senator Baldwin. Thank you.
    The Chairman. Thank you.
    Senator Hagan.

                       Statement of Senator Hagan

    Senator Hagan. Thank you, Chairman Harkin.
    I want to thank Chairman Harkin and Ranking Member 
Alexander for holding this hearing, and to the panel of 
witnesses for being here today.
    As the HELP committee kicks off our series of hearings in 
preparation for the reauthorization of the Higher Education 
Act, your insight and your overview of the triad is invaluable. 
I am glad that the committee is starting the discussion by 
dedicating this hearing to exploring the basic structure of the 
triad. I am looking forward to our discussion about the current 
functions of each of the actors of the triad, if the current 
model is effective, and starting a discussion around how to 
improve the structure.
    Dr. Phillips, it is clear from your testimony that you 
believe the triad is working because it is highly regarded and 
emulated by our international friends. I believe providing our 
students with a quality educational experience is vital to 
producing a highly skilled workforce and the accreditation 
process is essential to achieving this outcome.
    Given your extensive knowledge and multiple roles held in 
the field of higher education as a professor, a dean, provost, 
and vice president, I know that you have a keen insight in the 
compliance and reporting requirements for an institution. You 
mentioned that we should work to reduce duplication and 
increase communication within this triad, but argue against 
providing increased transparency of accreditation reviews.
    Can you explain why you do not think these go hand in hand?
    Ms. Phillips. Let me clarify. The things you are thinking 
are not going hand in hand are transparency and----
    Senator Hagan. Transparency of the accreditation reviews.
    Ms. Phillips. I am actually of the opinion that 
transparency is a good thing, and that accreditation reviews 
need to be more understood by the public and more available. 
You can see some of the accreditors, regional accreditors, have 
already moved in that direction.
    I do think that that kind of transparency needs to be done 
in the context of what it means to be disclosing in the course 
of a review. While you might find yourself feeling comfortable 
coming out of your physician's office saying, ``I have a clean 
bill of health.'' You might not want them, the public, to have 
examined your waist size and body count.
    Whether or not the details behind an accreditation review 
are the things that are publicly useful, I am not so sure. But 
the basic overview, and in a way to, is helpful to the public, 
I think should be.
    Senator Hagan. It seems like in most cases, though, there 
is no information given to the public about institutions put on 
probation.
    Ms. Phillips. Part of the accreditation process will 
require that an accreditation decision is subject to an appeal 
process. Often the accreditation process will not do the full 
disclosure until that appeal process is complete. I do not know 
if the instance that you are talking about is one of those, but 
that may well be simply part of the due process and fairness to 
the institution element that is inherent in all of the 
accreditation.
    Senator Hagan. Sometimes that process alone causes parents 
to say, ``Oh well, I think we will go elsewhere.''
    Ms. Phillips. Without knowing what it is on probation for.
    Senator Hagan. I think transparency is something in this 
whole process that is really more necessary.
    Ms. Phillips. I would actually make a case for both more 
transparency, more meaningful transparency and also what I 
would broadly call consumer education. Your average parent does 
not necessarily know what accreditation means. To have some way 
of describing that in a way that is not simplistic, but 
understandable to the general public.
    Senator Hagan. I think that is why probation status needs 
to be better defined because the parents and students want to 
know that an institution is accredited, but at the same time, 
if there are no common definitions, what does that even mean?.
    Anybody want to comment on that?
    Mr. Hartle. I think I generally agree with what Susan said. 
I think defining a little bit more precisely exactly what you 
think ought to be made available. Probation means different 
things in different accrediting associations, and so it may not 
be a problem in some associations; it may in others.
    In general, I am very much in favor of additional 
transparency, and would point out that in any State, all the 
accreditation materials produced by the institution and the 
agency are subject to open record laws. I have never seen a 
newspaper go in and actually look at the documents and write an 
article about them. Certainly if SUNY Albany, where Susan is, 
those documents would all be public. I know of one university 
that just puts all the documents in a room and tells anybody 
who asks, ``Go take a look at them.'' The public does not seem 
to want to delve into the stacks of information that are made 
available.
    You could make all that, require all that to be public, but 
it is not clear that there would be a big interest in having 
it.
    Senator Hagan. Thank you.
    Dr. Hill, thanks for your testimony. As we continue to grow 
our increasingly global economy, we understand that we have to 
continue to make significant investments in education, both at 
the State and the Federal level to ensure that we are producing 
a competitive workforce, one for the 21st century.
    As we are seeing these dramatic changes, and Senator Warren 
mentioned some of the actual dollar amounts, but we are also 
seeing a lot of dramatic changes that are brought on by 
technology and an increasingly diverse set of students. Where 
do you see the appropriate role of the State in this shifting 
triad?
    Mr. Hill. I imagine that at every reauthorization of the 
Higher Education Act, people have said that higher education 
has changed so much, and we are facing something completely 
new. I think that is especially true now, so we have had an 
unprecedented explosion in higher education enrollment despite 
the little dip we had last year.
    The States are keenly involved with this. The States right 
now do what they do in such very different ways that 
institutions that operate across State borders are spending a 
great deal of time and effort trying to comply with all of 
that. We can do a better job.
    The organization I have just come to head in the last month 
is focused on that. It is a voluntary system to let States that 
choose to recognize the good work done by other States can 
agree to accept one another's approval of institutions, and 
that is going to lower costs very considerably. We are going to 
have to do as many things like that as we can in order to get 
where we need to be.
    States need to do a better job about sharing completion 
data, especially regional States. Nebraska and Iowa share a lot 
of students. We have an enormous transfer of students back and 
forth, but we really do not know much about one another's data 
and progress of those students. We could do better about all of 
that.
    The Chairman. Thank you very much.
    Senator Hagan. Thank you.
    The Chairman. Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you, Mr. Chairman.
    Thank you for this hearing. Thanks to our witnesses.
    I am an example of millions of families who are caught in 
the squeeze of college loans and affordability. My wife and I 
are still paying back our student loans, and we are desperately 
saving for our two young kids. While we make an income that 
allows us to do both, it is still astronomical the amount of 
money that we put into the college line item. The burden of 
paying for college and paying back college is absolutely 
crushing families today. I have to agree with Senator Warren, 
the current system we have just fundamentally has not worked 
for students.
    I thought the first question was the best one which was 
Senator Harkin's very simple question as to what the primary 
roles of each of the three components of the triad is. I 
thought it was interesting that none of the answers from the 
panelists was affordability or making college cheaper.
    Now, I understand that it probably is an element of each of 
those pieces of the triad, but it certainly has not been the 
chief responsibility of any of them. I guess I will ask this 
question to Dr. Lingenfelter, because you sort of lead with an 
overview of the triad.
    One of the pieces that seems most curious to me is that the 
Federal Government is putting in about $140 billion in funding 
through Pell Grants and student aid, but is seemingly 
outsourcing the question of quality and affordability to State 
regulators and to accreditors. There is not a lot going on at 
the Federal level to really tie those dollars to schools that 
are actually delivering a cheaper product with quality attached 
to it. It just seems like a curious division of labor.
    Should the Federal Government be playing a much larger role 
in making sure that the dollars that it is sending are actually 
going to institutions that are delivering more for less money?
    Mr. Lingenfelter. Let me begin by saying that I think it is 
the role of the States and the Federal Government to make 
college affordable. I think the focus when we think about the 
triad is the quality assurance piece, but the affordability 
piece--access to higher education to quality--is absolutely the 
responsibility of the States and Federal Government.
    The States have traditionally played the role of assuring 
affordability by direct aid to institutions, as well as student 
financial aid, and in many States that includes private as well 
as public institutions building capital facilities. What has 
happened is as higher education has become more important, and 
enrollments have soared--and the other challenge the country is 
facing in providing healthcare and retirement for my generation 
and other issues--we are having a hard time keeping up.
    We need to reset our system and focus on the kind of 
support it will take to keep college affordable for every 
American, so we do not waste that human potential. It is 
especially an issue at the lowest income level. It is a growing 
issue at the middle-income level. It has got to be a national 
priority.
    Senator Murphy. Go ahead, Dr. Hartle. Answer the question 
quickly and then I have another question for you.
    Mr. Hartle. The triad has not heretofore been designed to 
address issues related to affordability. Obviously, you could 
add that.
    To the extent that it is a responsibility of one part of 
the triad, it would be the responsibility of the States.
    Senator Murphy. I see.
    Mr. Hartle. Eighty percent of college students in the 
United States go to public institutions. The price they pay 
will most likely be determined by decisions made by the State 
legislature about operating support for the public university. 
So that is where the focus would be.
    The challenge you face is that because the Federal 
Government does not give States money for higher education, the 
way you give States money for elementary-secondary education, 
it is very hard to hold the States' feet to the fire with 
respect to funding levels.
    Senator Murphy. That is true, but we still put $140 billion 
into both public and private institutions. We have a pretty 
enormous hook into those colleges to, at least, have a 
conversation about affordability that we are not.
    Let me ask you one additional question. I frankly think it 
is remarkable how little innovation has happened in higher 
education over the past decade or so. The innovation that has 
happened, I think, has largely happened around trying to make 
more profit for for-profit companies.
    It is remarkable to me that when you enter a public 
university today, it largely looks very similar to what it 
looked like 50 years ago. You still get very little credit for 
prior learning. You are still going to have to spend 4 years. 
You are going to be in a credit hour-based system. There are 
only two universities in the entire country today that are 
awarding degrees based on competency-based measurements.
    You talk about incentives. It seems that there is very 
little, if any, incentive today to really do true innovation 
that would, for instance, reduce the amount of time that a 
student spends in school. There are all sorts of great, 
innovative ways and thoughts out there about how you could 
shrink the amount of time that a student has to spend based on 
their ability to show that they learn faster or showed up with 
more in their brain to begin with. Yet right now, the system 
does not necessarily seem to help schools get to the point 
where they would want to innovate on the structure of their 
system of higher education.
    Mr. Hartle. Thank you for that question. Let me begin by 
saying I fundamentally disagree with you about whether there is 
innovation taking place at traditional colleges and 
universities, and would be happy to continue the discussion 
with you about that offline.
    There is a great deal of interest in what is called prior 
learning assessment and giving the students the opportunity to 
demonstrate knowledge before they enroll in higher education, 
or to get credit for things once they are at colleges and 
universities, certainly, competency-based education. You 
mentioned Western Governors University as well as the 
University of Southern New Hampshire are both experimenting 
with this.
    Higher education institutions are very good at copying, and 
if an idea proves successful, you can bet every institution in 
the country will be looking very quickly for ways to do it.
    If you want to stimulate innovation, Paul Lingenfelter 
mentioned a small program that you used to have at the 
Department of Education called FIPSE, the Fund for the 
Improvement of Postsecondary Education, that has been pretty 
much moribund for the last 20 years. It would be very easy to 
use a modest amount of Federal dollars to encourage whatever 
types of innovative activities you would like to encourage. 
That is something the Federal Government could do very easily 
if the committee chose to do it.
    Senator Murphy. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murphy.
    Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Thank you, Chairman Harkin, for holding 
this hearing and for the focus on higher education.
    I am no expert in higher education. I will be the first 
person to concede that, but having one child in college, having 
another one that went through a college, having been to a 
college myself, and representing a State that is famous for 
very, very good colleges, I have some exposure to it. I have to 
agree with Senator Murphy.
    My impression is that when you look at the innovation that 
is taking place in other industries, when you look at the 
innovation that is taking place in technology in our lives, I 
do not really see that kind of innovation happening at all in 
the higher education sector. Join me in on that conversation, 
because I do not frankly believe you, Dr. Hartle, and I would 
love to learn more about that.
    Mr. Hartle. I would be very happy to----
    Senator Whitehouse. Let us do that offline because I have 4 
minutes right now.
    Dr. Lingenfelter, when you were asked about affordability, 
you went to three areas. One was direct aid to universities--
outside funding and direct aid to universities. One was student 
financial assistance; outside aid coming in through the 
students as student financial assistance. The other was capital 
for buildings from the States that support it; again, outside 
funding coming in to universities.
    When asked about ways to enhance innovation, Dr. Hartle, 
you mentioned the FIPSE program which is, again, outside money 
coming in. In some respects, I am seeing in this hearing the 
same sort of bias that concerns me that in higher education 
very often the look is like, ``How do we get money into our 
existing system?'' And not, ``How do we make our existing 
system innovate? How do we make it more efficient? How do we 
prove to our students that we are as efficient as banks have 
become and retail folks have become?'' Frankly, even Government 
agencies under the enormous pressure of the terrible cuts they 
have sustained have had to become. I would like to see that 
made more of the conversation. Let me ask two specific 
questions.
    Do you know of any credible reports that were talked about 
earlier about bringing management consultants to look at this? 
Do you know of any credible reports out there that actually 
take a look at the efficiency of higher education and compare 
it to other industries that we, as a committee, should be 
looking to as reference points?
    In terms of the triad, do you know of any existing analysis 
or documents out there that quantify the cost of that triad to 
the institutions and evaluate its effectiveness? Do we have an 
existing basis of analyzed data out there that we should be 
reviewing, or are we kind of starting from scratch in those two 
departments?
    Mr. Lingenfelter. We have been doing cost analysis in 
higher education for 40 or 50 years. We know a great deal about 
cost.
    I think the fundamental premise you are coming from, 
though, is a sound one and that the most important money that 
is in higher education is the money we have now, not money we 
are going to bring in, and we have to find ways of using that 
more efficiently and effectively.
    The pressure to do that is enormous. Public colleges and 
universities have not been increasing spending per student. 
They have been decreasing spending per student because of the 
pressure on them.
    While emphasizing the importance of getting productivity 
means, I think it is also important to recognize that we are 
asking higher education to do something that we have never done 
before, and that is educate virtually everybody to a high 
standard.
    We cannot sort and select to excellence by simply reducing 
the inputs to the most able student. In order to get the kind 
of educational achievement we have in this country, we not only 
have to find better ways of using the money we have. We have to 
make sure that we provide enough to do the job. Given the size 
of the challenge, I think, both parts of that question really 
need attention.
    Senator Whitehouse. Well, my time is about to run out, and 
this is going to be a long discussion. Let me make it in the 
form of a question for the record, and ask each one of you to 
followup if you have an answer.
    That is: What are the best one, two, or three studies that 
you would recommend that somebody like me should look at with 
respect to the innovation trend of higher education as a 
comparison to other industries? That is one.
    The second is: what is the total cost of this regulatory 
triad? Is there any effectiveness analysis of what parts of the 
cost that you are all asked to bear of that triad are helpful 
and unhelpful?
    Those are two areas where, I think, if there is existing 
work and it is good work, I would like to see it. OK?
    Senator Whitehouse. Thank you all very much and thank you, 
Chairman.
    The Chairman. Thank you, Senator Whitehouse. Thank you all. 
This has been an interesting kick off.
    First, I will just recap a couple of things. I think 
Senator Alexander really puts his finger on something, when you 
compare this to the auto companies in the 1950s and 1960s and 
talk about innovations. Dr. Hartle, I would also like to be 
included on that innovation discussion.
    The auto companies made innovations. I remember when 
Chrysler in 1958 changed all their designs. They had the 
DeSotos, the Dodges, the Chryslers, and it was quite a change 
in the design of automobiles, but it was basically the same 
car. Need I mention the Ford Edsel that came out? There were 
some innovations, but it did not get to the crux of what people 
really wanted and what the future was.
    I remember when I was in college in the late 1950s, early 
1960s, the VW Beetle came to America, and young people started 
buying them. Ugly little things, they said at the time. It did 
not look like an American car, but it is amazing how many young 
people started buying them.
    Innovation is one thing. The auto companies made 
innovations, but they were just more chrome, more fins, more 
flashiness, but it really did not get to the essence of what 
the future was going to be in automobile demand and 
efficiencies. The Japanese, and the Germans, and others got on 
top of that. Innovation in what way?
    Second, what we picked up from this hearing is that one of 
the biggest concerns that we have is this increasing cost. I 
hear that all over. I just pointed out, and had my staff look 
it up, from 1985 until now, the cost of higher education has 
gone up by 498.5 percent. The CPI has gone up by 114 percent; 
so 5 times. Why has it gone up by 5 times the rate of 
inflation?
    What is inherent in those costs? Are we getting value for 
that? I mean, are we getting brighter students? Are we getting 
better graduation rates? Are they getting better employment? Is 
our economy improving because of that? I think these are--and 
we are going to delve into more of this in our future hearings, 
what goes into that 400 percentage point increase, over 5 times 
more, than the CPI. There are a lot of elements in that; I do 
not mean to go into that, but I think you can see where we are 
headed on this.
    We looked at the triad and what each one has--and my 
question that Senator Murphy also talked about--is what are the 
primary responsibilities? In terms of cost control, it seems 
that we have both the State and the Federal Government. I am 
not certain that accreditors need to be left off the hook on 
that either in terms of cost controls, and what they are 
looking at in terms of accreditation, how they accredit, and 
what the basis of those accreditations are. We are going to 
look at that too.
    Certainly, transparency, this is my own thought. 
Transparency in terms of accreditation and how they do that is 
vital. Communication between them and the universities, and 
among universities, and among the populace and families need to 
be better.
    We need to have a better kind of comparison so that 
families can compare when their kids go to college. How much 
does this cost? What are they getting? What is the employment 
rate? How do they learn? What goes into the credit hour that 
one college costs versus another college? What goes into that 
credit hour, how do they make that up? Families can make better 
judgments on where they get a better value for their dollar.
    My last question, and I am almost out of time, the 
President recently announced plans to develop a college rating 
system--we are going to be looking at that--on who is offering 
the best value to students. We do not know what that rating 
system is and how that is going to be fashioned, but that has 
been thrown on the table. I just want to know what you think of 
the idea of a college rating system as a way of maybe cost 
control, value, comparisons. It is something that we ought to 
be looking at as we go through the Higher Education Act.
    Dr. Lingenfelter, what do you think about that rating 
system?
    Mr. Lingenfelter. I think we would get farther ahead, quite 
frankly, if we developed a consensus among institutions about 
fundamental standards of student learning and a commitment to 
getting more students successfully reaching those standards.
    I do not know that--I think there is a place for a rating 
system, there is a place for transparency, but this is not a 
silver bullet. What will really make, what will continue to 
make American education as great as it has been, and help to 
meet the new challenges, is a common sense of commitment to 
fundamental educational values.
    The Chairman. Dr. Hartle.
    Mr. Hartle. I agree with Paul. I do not think that a rating 
system is a silver bullet. If it was, ``U.S. News & World 
Report'' would have solved the problem 30 years ago.
    I think there are four issues that are of particular 
interest as the Department does this. They have the authority 
to do this. I have no doubt that they are going to go ahead.
    First, the President says he is concerned with giving 
families information about value and affordability. I think 
those are important terms that need to be very clearly defined. 
Value implies some combination of quality and price. It is not 
clear where the Department of Education will get data about 
quality from.
    The peer groups are not clear. The President says he wants 
to rank comparable institutions. There are academics who spend 
their lives trying to figure out what institutions are 
comparable to other institutions. That will be a challenging 
issue.
    The data sources the Department will use are not clear. 
Obviously, they have data from IPEDS, but they have data that 
they can get from the Social Security Administration or the 
Internal Revenue Service, but that does not necessarily give 
them a lot of data about things like equality that they will 
want.
    Finally, the formula they are going to use is unclear. The 
formula you put in a ranking system envelopes the values that 
you attach to the various elements in there. Do we put more 
emphasis on having a diverse student body than having a high 
graduation rate or having a low posted price? This is hard 
stuff, and the Department will have a lot of work to do to make 
this happen.
    I think those are sort of the core issues that they will be 
addressing.
    The Chairman. Dr. Phillips, quickly.
    Ms. Phillips. I would absolutely agree with what has been 
said so far. This is a fascinating idea, but one very difficult 
to achieve. The definitions of quality from whose perspective, 
value from whose perspective raises questions about the 
variability of mission, the variable interest of the student 
going forward not only the variability of the potential 
funders. The diversity of definition is a huge issue.
    The number of variables you would need to get into the 
equation in order to make a fair judgment would mean that a 
system would be reduced to something simple, read simplistic, 
and that that would not do good things for our education 
system.
    The Chairman. Dr. Hill.
    Mr. Hill. Senator, I have come to believe that the answer 
to almost every question about higher education is: it depends, 
and you have heard that from my colleagues.
    I do support transparency, greater transparency so that 
students and families know about the institutions they are 
considering attending. Frankly, I am not really convinced that 
that is the basis upon which the majority of students and 
families make their choice about the institutions they will 
attend. A huge percentage of students in our country attend 
college within 50 miles of themselves; proximity is paramount, 
and the people that we most need to reach right now are looking 
as a default to their local community colleges. We need to do 
everything we can to keep costs at those institutions as low as 
possible.
    The Chairman. Thank you all very much.
    Senator Alexander.
    Senator Alexander. Thanks. This has been very helpful.
    I have two questions. One is I am a big believer in the 
marketplace and a big defender of autonomy, money following 
choice, money following students to the institution of their 
choice, and competition. I wonder why that has not produced 
more innovation in higher education? I mean, how is it that 
Dartmouth can operate year-round?
    If you go to Dartmouth undergraduate, if my facts are 
right, one of those summers you have to spend at Dartmouth. 
They claim, Dr. Trachtenberg is saying that saves Dartmouth $10 
million a year. By fully utilizing Dartmouth's facilities saves 
$10 million a year, why do not more institutions fully utilize 
their facilities in the summer?
    The President noticed the other day that the former 
Governor of Tennessee instituted a system that the current one 
is using that spends State dollars for higher education in some 
part based upon how rapidly students graduate from college. 
Different campuses are coming up with all sorts of ways to 
encourage that. The University of Tennessee at Knoxville is 
saying, ``If you come here, you are going to pay for 15 hours 
even if you go 12.'' Well, that gets a lot of people to say, 
``Well, I do not think I will stick around for 6 years just to 
watch the football games. That is going to get expensive.'' 
Austin Peay University is doing it a little different way 
because they are a little different kind of college.
    My question is, I think there is going to have to be an 
enormous amount of innovation in the next 20 years, more than 
colleges are comfortable with. I think an analogy to the auto 
industry in the 1970s is accurate and what transformed the 
American auto industry was pure and simple competition. It was 
the Volkswagen Senator Harkin talked about. It was the little 
Japanese cars, Datsun was being sold one a week from Los 
Angeles for a while until Nissan got its foothold. All of a 
sudden, the Big Three and the UAW had to get busy. We saw that 
in our State.
    Nissan came to Tennessee. Got a green field, a right-to-
work law, but it brought a bunch of Ford executives to run the 
plant; so just a matter of both labor and management making big 
changes.
    Why has not the marketplace produced more innovation in 
higher education? And what assurance do we have that it will? 
Because if it does not, then you are going to have Senators and 
Congressmen coming up with all these rules, and regulations, 
and ideas, and, ``OK, Tennessee did this, so make everybody do 
that.'' That is not going to work. That is just going to stifle 
opportunities for innovation.
    How do we encourage more of the kind of innovation that the 
marketplace is supposed to encourage?
    Mr. Lingenfelter. Terry Hartle will tell you that there is 
a lot of innovation and competition out there already, and I 
think that is right.
    Senator Alexander. Yes, but how can you explain 
universities taking the summer off when those buildings are so 
expensive and that obviously adds millions of dollars to the 
cost of everybody going to school at that university? That is 
because faculty members do not want to be inconvenienced; that 
is all it is. Administrators do not have the courage to 
confront the faculty members. You know that is true, is it not?
    Mr. Lingenfelter. I am not going to argue with that, sir.
    Senator Alexander. Yes, I would not.
    Mr. Lingenfelter. You are right.
    Senator Alexander. You know that is true.
    Mr. Lingenfelter. The point I wanted to take from your 
analogy from the auto industry is that we are in competition 
internationally now.
    Senator Alexander. Right.
    Mr. Lingenfelter. We have to find a way to do that, and it 
is going to be a combination of flexibility in how we do this 
work and also some coherence in what our national strategy is.
    Some of the countries that we are competing with right now, 
frankly, do not tolerate any standard at all for higher 
education achievement. They develop standards. They say, ``This 
is what we expect knowledge to be,'' and we have to find a 
right balance between the kind of flexibility that you have to 
have for innovation and a commitment to core values of academic 
quality and also access and affordability for our citizens. We 
have got to do both.
    Mr. Hartle. I think the reason you can count on seeing 
innovation increase in the next two decades, which was your 
timeframe, is because knowledge is no longer place-bound. The 
university has always been based on a model that knowledge 
would be at one particular place and people would go there to 
take advantage of the knowledge, to gain the knowledge. The 
information technology revolution is changing all of that very 
rapidly.
    With respect to your specific example about people 
accelerating a degree program, I think it is important to 
distinguish between nontraditional students and traditional 
students. Nontraditional students are very anxious to go year-
round, and you will see this happen at community colleges and 
at regional State colleges.
    It is not clear that traditional college students really 
want to accelerate their time to a degree. A school like 
Dartmouth can make students do it because it is a selective 
institution. It is just part of the deal. You come there; you 
are going to do it.
    A few years ago, several schools moved to a 3-year degree 
model and we got a lot of calls about it from the media. What 
was quickly discovered was that there were not a whole lot of 
students who wanted to go to school year-round.
    Senator Alexander. That is true. I have studied that.
    I am thinking more of the fact, and Dr. Trachtenberg, whom 
you know, and formerly from G.W. said--although he never did 
it--that he could operate two full colleges every year in the 
same facility he had if he just scheduled it properly. In other 
words, you could have two sets of people doing a regular 4-year 
degree with a full utilization of the building.
    If that were true, why is not someone doing it?
    Mr. Lingenfelter. Maybe because there are not enough 
students to fill it twice.
    Senator Alexander. Well, maybe.
    Mr. Lingenfelter. In other words, that is----
    Senator Alexander. But you said enrollment was way up.
    Mr. Lingenfelter. It is way up and there are a lot of 
stretching at the seams to meet that as well.
    Mr. Hartle. That is true.
    Ms. Phillips. I would also add in that discussion that the 
foundation of choice in competition is based on the particular 
consumer who is choosing and making use of that competition, 
and in the higher education world, that is the student. It is 
not necessarily the cost of tuition.
    The student who does not want to go to school in the summer 
versus the one who really wants to get their higher education 
degree in a minimal amount of time, it is the student. It is 
the international student, the student who is looking for 
something 50 miles down the road. It is the student who is 
driving it.
    While something like a 12-month curriculum makes lots of 
sense, and I actually would argue with the faculty assignment 
on that, it may not be something that the students would come 
for. We might compete on that, and there is no market.
    Senator Alexander. Yes.
    Mr. Hill. Senator, I would like to address your question 
about why we do not get more innovation; a number of Senators 
have mentioned that today.
    I find I am in agreement with both points of view. I agree 
with Terry in that there is a lot of innovation going on in 
higher education, but we are not scaling it at all. I suggest 
that the reason we are not is in one of those recommendations 
you received from President Gardner and that is the 
``autonomy'' word.
    Institutions can choose to innovate or can choose not to. 
The way we are going to get more innovation is to incentivize 
good results that are only reachable by incorporating some 
innovation.
    Senator Alexander. Mr. Chairman, this has been a terrific 
hearing.
    What was going through my mind is I hope we include in our 
panel some of the Governors, because I was thinking if the 
President really wanted to get a lot of this done, I think I 
would call the Governors together every 3 months and get them 
going on it, and then Governor Haslam, from our State would 
say, ``Well, look what we have done at the University of 
Tennessee,'' and somebody from New Hampshire will go back and 
try the same thing. That would have a major impact, I think, 
but I am not sure we Senators can summon all the Governors. We 
might ask a few to come to a hearing.
    The Chairman. We might do that. I cannot help but also just 
comment again on this innovation. As I said, in the 1950s and 
1960s the automobile companies, they innovated, but they did it 
within their own confines.
    Senator Alexander. Yes.
    The Chairman. They made it fancier, and flashier, and all 
that kind of stuff.
    Maybe I am nitpicking here, but I see so many colleges now 
advertising to perspective students about their new dining 
facilities, and they have new chefs that are world acclaimed. 
That the residence halls now are, I would not say luxurious, 
but bordering on pretty darn nice and they sell that to 
perspective students.

          ``You can come here. Look, you have all this, and 
        then look at our recreational facilities. We have 
        everything you would ever want to do recreationally 
        here, and you have a great lifestyle here at the 
        college.''

    Is that the kind of innovation we are talking about?
    Mr. Hartle. I think two observations. One, a lot of the 
specific examples you have done are in the case of traditional 
colleges and universities, and traditional students, which is 
about 20 percent of the total. Most college students do not 
particularly care about the dormitories or the chefs.
    Traditional colleges are in competition with each other, 
and whether traditional colleges like it or not, there are an 
awful lot of consumers who want to see nice dining halls, who 
want to see nice residence halls, and they need to compete with 
each other to have the things that will attract students. If 
they do not attract students, they go out of business.
    The Chairman. Like the automobile companies, why are they 
not competing on quality, and graduation rates, and lower cost 
for the students to go to that school rather than a fancier 
car?
    Mr. Hartle. Some schools are electing to compete on lower 
cost.
    Just this week or last week, excuse me, there was a college 
in Minnesota that announced it was going to cut its costs 
dramatically from $27,000, I think, to $16,000. Other colleges 
have done that, going back as far as the early 1990s when 
Muskingum College did it in Ohio. What usually happens is that 
they see a surge in enrollments for a year to two, and then it 
levels off. Price turns out, if there is a big publicity to 
tuition drop, turns out to be something that attracts people, 
but only for a relatively short period of time.
    Higher education, particularly for residential students in 
areas of the country like Iowa where the population is not 
growing, is extraordinarily competitive. Institutions compete 
with each other. It is a little different for very selective 
institutions like Dartmouth or Grinnell. But if you are looking 
at schools where a drop of 50 students can have a serious 
impact on the institution's budget, frankly, they are very 
attuned to what their consumers want right then.
    At the same time, they are looking down the road because 
they can see that knowledge is no longer place-bound, but they 
have to meet a budget every year that depends on getting an 
adequate number of students to enroll, and they have got to 
serve those consumers.
    Senator Alexander. You are making me think. College 
presidents look at this all the time and what we find is some 
families, some students think a higher price means it is a 
better product, just like a car or a bottle of wine, and so, 
they go for that.
    I saw a survey once that showed that the major reason a 
student picked a particular school was the physical 
characteristics of the campus. Was it a good looking campus?
    Dr. Hannah said way back in Michigan years ago that when he 
was trying to buildup Michigan State, he said, ``Give me a 
football team, and I will catch Michigan in 20 years,'' and he 
about did. He used that football team to build popular support 
for his State university and contributions and others. If you 
have a marketplace, I guess the institutions offer what the 
students want.
    Increasingly, particularly with the arrival of online 
education and the phenomenon that Dr. Hartle mentioned, which 
is knowledge is here now, that may be the most important 
driving force over the next 20 years--lowering costs.
    The Chairman. It has been a great hearing. I think we 
kicked off right.
    I have some other questions that I know I personally wanted 
to ask regarding the triad and accreditation, but we got off 
that a little bit.
    I will leave the record open for 10 days for Senators to 
submit questions in writing and hopefully you will respond to 
those as we submit them to you.
    Again, I want to thank all of you for being here to share 
your knowledge on this.
    As I said in my opening statement, we need to take a tough 
look at re-imagining how our higher education system can work 
better. Maybe we do need to start from scratch. I do not know. 
That might be alarming, but maybe that is something we ought to 
think about. I think we all agree it is no time for the status 
quo, and I look forward to working with Senator Alexander and 
our colleagues on both sides as we continue this series of 
hearings.
    With that, the committee will stand adjourned. Thank you 
all very much.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

  Response by Paul Lingenfelter, Ph.D. to Questions of Senator Murray 
                         and Senator Whitehouse
                             senator murray
  degrees and certificates that do not have the quality to translate 
                     into a job with a living wage
    Question 1. In the recent years we have seen many instances when 
students, especially veterans, have used their Federal financial aid to 
attend a higher institution of their choice. Yet they graduate with a 
degree that does not translate into a career or a job that provides a 
livable wage. What change to the accreditation process would you 
recommend to ensure our students and veterans are receiving a quality 
degree?
    Answer 1. I believe the academic community needs to develop clear 
standards for the knowledge and skills signified by different degrees 
and certificates and those standards should be shared among accreditors 
and used to hold institutions accountable for student learning. Such 
standards need not and should not be unreasonably detailed and 
inflexible, but they must be meaningful to students, faculty, and 
employers. They should include both knowledge and the ability to use 
knowledge productively.
    The ability of graduates to make a living is a reasonable indicator 
of what they know and can do as well as an indicator of the quality of 
their education. General knowledge and skill (communication skills, 
quantitative reasoning, and the ability to understand other people and 
the context of real world problems) are required in every job that pays 
a living wage. They are also required for the ability to adapt to the 
inevitably changing conditions and demands in the workforce. Developing 
such capabilities should be a required objective in every postsecondary 
curriculum.
    While general skills will be employed in every demanding job, it is 
of course useful also to encourage students to develop specific 
capabilities for particular jobs. Accordingly, colleges and 
universities seeking to be effective in job training as well as general 
education would be well-advised to develop partnerships with employers 
to achieve high rates of employability after graduation. I expect that 
the greatest, persistent incidence of failure to find work after 
graduation occurs in programs that: (1) fail to develop fundamental 
general skills; (2) prepare more students for specific jobs than the 
market demands; and (3) lack robust relationships with employers to be 
sure the programs meet their needs for skills as well as an appropriate 
number of graduates.
Accreditation Process and ``Bad Actors''
    Question 2. Is there anything in the accreditation process that 
keeps bad actors from getting access to Federal student aid programs?
    Answer 2. Traditionally the accreditation process has worked from 
the premise that the ``standard'' for accreditation is based on the 
institutionally defined mission, not a standard that applies to all 
institutions offering a particular degree. Without external standards 
it is difficult to exclude ``bad actors'' until the evidence of failure 
through loan defaults or exceedingly poor graduation or job placement 
rates makes the situation obvious. By then, many students have been 
harmed, and many dollars wasted.
    I have suggested earlier that coherent qualification standards for 
knowledge and skill for every specific degree should be used by all 
accreditors. I've also suggested that a standardized test should not be 
employed for this purpose. Let me conclude by describing how the 
quality of degrees can be ascertained without excessive or too-narrow 
standardization.
    Something like the Degree Qualifications Profile or similar 
frameworks used in other countries should be the benchmark used by 
accreditors in the United States. Institutions should be required to 
provide evidence, which can be externally validated by objective 
outside reviewers, that their students meet those broad standards 
before they are awarded a degree. Such evidence should include randomly 
selected samples of student work, projects, essays, and other 
``artifacts'' that are representative of what students know and can do. 
It could also include results from one or more standardized test 
results where such tests are relevant and helpful, especially in 
professions that employ such tests for licensure.
    A new institution without a track record would be required to 
demonstrate that its curriculum and its faculty is focused on 
developing such knowledge and skill before receiving State 
authorization to begin operations. It would also be required to 
demonstrate the capability of helping the students it intends to admit 
achieve those standards. Then the institution would have the benefit of 
a clear standard (not one that can be easily ``gamed'' by teaching to a 
single test) by which its performance will be judged. Accreditors and 
those responsible for maintaining institutional integrity and the 
effectiveness of public would have standards for meeting their 
responsibilities once students emerge from the program.
    The evidence of student learning gathered in this way would not be 
as easily compared among institutions as the results of a single, 
standardized test. It would be far superior to having no evidence at 
all because there are no coherent standards shared within the entire 
industry. This approach would be far superior to a single test that 
could never adequately measure the full range of important outcomes 
sought in higher education or achieve credibility within the academic 
community.
    I believe such an approach for assessing student learning and 
assuring quality would work both to prevent abuses and improve quality 
throughout higher education.
    Thank you for the opportunity to submit these additional comments. 
I would be happy to elaborate or respond to further questions should 
that be helpful.
                           senator whitehouse
Innovation in Higher Education
    Question 1. Can you provide reference to what you believe are the 
top two or three studies on innovation in higher education, especially 
those that compare higher education to other industries?
    Answer 1. The recent collection of essays in Game Changers (http://
www.edu
cause.edu/research-publications/books/game-changers-education-and-
information-technologies) published by Educause is a good collection of 
recent examples of innovative work in higher education, especially 
innovation involving technology. It provides both a broad overview of 
the issues and numerous examples of innovative practices at the 
institutional level in the United States and Canada.
    Clay Christensen, the author or principal author of The Innovator's 
Dilemma and Disrupting Class (as well as many other books) has studied 
change in many industries and seeks to apply what he has learned to 
education. Christensen's work has, for good reason, received a good 
deal of attention among educators and policymakers. Clearly information 
technology is providing dramatic improvements in the speed, scope, and 
methods by which students and faculty can retrieve and make use of 
information. As can be seen in Game Changers these opportunities are 
increasingly being exploited.
    As important as Christensen's work is, however, it is not likely to 
be the ``last word'' in foreseeing the future of education. Decades ago 
Peter Drucker predicted that ``brick and mortar'' universities would 
soon be obsolete. Experience since then indicates that ``soon'' was a 
significant miscalculation. Those aspects of higher education that 
involve human interaction, questioning, debate, coaching, and 
exploration, can be enhanced, but are easily replaced by technology. 
On-line instruction has grown rapidly, but it is far from displacing 
other methods.
    An article I wrote (recently published in Liberal Education http://
www.aacu.org/liberaleducation/le-sp13/lingenfelter.cfm) outlines the 
essential changes I believe are needed to achieve higher levels of 
educational attainment and explains why technology alone is not the 
answer to every educational problem. In addition to making effective 
use of technology, I believe we need to develop clear, more explicit 
learning objectives, better approaches for engaging students in 
challenging, problem-focused work, and better ways of improving 
instruction by providing credible feedback on student achievement to 
instructors. Student achievement should be measured not simply in terms 
of the knowledge they have absorbed and can reflect in a paper and 
pencil test. It should be measured in what they can do: how they can 
make use of knowledge and skill to solve complex, unscripted problems 
and do creative, productive work.
The Effectiveness and Cost of the Triad
    Question 2. Are you aware of any estimates of what the overall 
costs is, including government agency budgets and school compliance 
costs, to run the Triad system of oversight? How has its effectiveness 
been mentioned in any formal way?
    Answer 2. I know of no formal, systematic assessments of the 
effectiveness of the triad, nor do I know of comprehensive studies of 
its cost. In the event it may be useful, however, I will share some 
information and a few impressions to supplement my written testimony.
    Accreditation: Most of the work of accreditation is done by 
volunteers, not paid staff, and most of the work of accreditation (the 
work related to continuous, in-depth quality improvement) goes far 
beyond the essential requirements I believe are needed for title IV 
eligibility.
    I believe many institutions (perhaps most, but not all) would seek 
accreditation and bear the costs of accreditation whether or not title 
IV eligibility were at stake. Accreditation gives them a means of 
staying current with the standards and values of the professions 
(including education generally as well as all other professions and 
occupational fields with clear standards), it gives them a ``seal of 
approval'' which students and employers can rely on, and it provides an 
external means for assuring accountability and quality and for 
promoting improvement.
    Full-scale accreditation has required both more than is really 
needed for title IV eligibility and, paradoxically, less than is needed 
to be effective in assuring that ``bad actors'' can be prevented from 
enrolling students, treating them badly, and wasting title IV funds. 
Accreditation is more than is required because it takes a broad, 
comprehensive view of institutional performance and quality, dealing 
with issues that are not fundamental to the essential requirements for 
title IV eligibility. It is less than is required because we have 
multiple accreditors without generally accepted common standards among 
them for general education at the postsecondary level (except where the 
professions impose such standards). Because the stakes for title IV 
eligibility are very high and accreditors have no common, clear 
benchmarks, they generally have found it difficult to make categorical 
judgments that would deny title IV eligibility unless they have 
overwhelmingly negative findings on a variety of measures.
    These are the reasons in my full testimony that I urged that for 
title IV eligibility accreditors adopt shared standards for 
postsecondary degrees and certificates, hold institutions accountable 
to those standards for the degrees and certificates they award, and 
also hold institutions accountable for a reasonable success rate for 
the students they recruit and enroll. This is not an argument for 
``Federal standards,'' and it is especially not an argument for a 
Federal or national standardized test. It is an argument for 
defensible, coherent academic standards such as those employed in many 
other advanced nations, an example of which can be found in the Degree 
Qualifications Profile, now being field tested in the United States. In 
other nations institutions are required to demonstrate that they use 
such standards for guiding instruction and that they collect and can 
present evidence that students meet those standards before receiving a 
degree.
    I believe that title IV eligibility could be both more effective 
and more efficient if such a qualification framework were employed. 
Full accreditation would and should go further, but it need not be a 
requirement for title IV eligibility if accreditors and the Federal and 
State governments have other means to assure the quality of degrees and 
the adequacy of student success rates.
    The States: Except for the oversight of public institutions, most 
States have made only modest investments to provide quality assurance 
and consumer protection in postsecondary education. Most of the States 
with a staff dedicated to this function employ only a handful of people 
for this purpose, largely or entirely supported by institutional fees.
    States have generally done just what they felt necessary for 
institutions operating within State boundaries, which helps explain the 
minimalistic approach taken. The regulatory requirements in any single 
State have rarely been a significant issue to institutions (except when 
there are disagreements about standards), but when institutions operate 
in many States through distance education the cost of gaining 
authorization is multiple States can become an intolerable burden.
    In my view, all States need an effective mechanism for receiving 
and resolving consumer complaints that are not resolved at the 
institutional level. This will require many States to improve what they 
do now, but it should not require excessive cost or regulatory burden, 
especially if States, accreditors, and the Federal Government avoid 
unnecessary duplication of each other's role and develop better, more 
transparent working relationships.
    This function is necessary at the State level because accreditors 
have no legal powers to deal with consumer protection from fraudulent, 
or sub-standard business practices, and the legal powers of the Federal 
Government are insufficiently broad to deal with many of the specific 
issues that have arisen.
    The Federal Government: I have no information about the level of 
staffing and cost of Federal oversight for title IV. Some in higher 
education believe additional efforts and resources for assuring 
financial oversight and evidence of acceptable student outcomes are 
required. Others quarrel with how the Department does its job.
    My impression is that the Department of Education is making and has 
made a good faith effort to respond to the requirements of the laws 
passed by Congress and its responsibilities as a good steward of public 
funds. While I'm sure there is room for improvement, I believe the 
Department receives a good bit of unjustified criticism given the 
financial and legal constraints it must work within. The laws are 
detailed and complicated, higher education is a very large industry, 
and the stakes are high both for students and the public. The higher 
education community and the Congress would do well to start fresh in a 
serious, good faith effort to develop a regulatory framework that can 
be effective and efficient. I believe such a framework would be 
welcomed by the Department.
   Response by Terry W. Hartle, Ph.D. to Questions of Senator Murray 
                         and Senator Whitehouse
                             senator murray
    Question 1. In recent years we have seen many instances when 
students, especially veterans, have used their Federal financial aid to 
attend a higher institution of their choice. Yet they graduate with a 
degree that does not translate into a career or a job that provides a 
livable wage. What changes to the accreditation process would you 
recommend to ensure our students and veterans are receiving a quality 
degree?
    Answer 1. Research has demonstrated the many benefits of college, 
including increased lifetime earnings, greater civic engagement, and 
reduced likelihood and length of unemployment. While these benefits 
hold true for most, unfortunately, there have been cases where 
individuals have used Federal student aid or veteran benefits to attend 
programs that have not had proper programmatic accreditation. For 
instance, a student might have attended an ultrasound technician 
program but because the program was not accredited by the appropriate 
programmatic accreditor, the student was unable to receive a license.
    Programmatic accreditation is a very technical process and one that 
is separate and distinct from the institutional accreditation process 
discussed at the hearing on the Triad. However, one recommendation to 
address this serious issue you raise would be to ensure that ED is 
vigilant about its misrepresentation rules. These regulations prohibit 
institutions from making false or misleading statements about their 
accreditation (institutional or programmatic), or any other material 
aspect of their programs (e.g., job placement rates). We have long 
relied on a system that allows students to receive aid and use it at 
the institutions of their choice, and I continue to believe that this 
system has served us well. However, we need to ensure that students 
have the information they need to make sound decisions, while at the 
same time remembering that too much information and detail can be as 
unhelpful as not enough.
    Veterans need similar information to make sound decisions about 
where to use their hard-earned GI Bill benefits. Your legislation, the 
Improving Transparency of Education Opportunities for Veterans Act of 
2012, which was signed into law in January, takes important steps in 
this direction by ensuring that the VA will help veterans understand 
the important differences between these two types of accreditation.

    Question 2. Is there anything in the accreditation process that 
keeps bad actors from getting access to Federal student aid programs?
    Answer 2. Regional accreditation provides a number of important 
safeguards to help protect Federal student aid funds, often in 
collaboration with other parts of the Triad. For example, during a 
review, a regional accreditation review team may spot irregularities 
that are often shared with appropriate State and Federal entities for 
further action. Another important but less well-known way that 
accreditors protect access to Federal student aid funds is through the 
institution's initial application. It is not uncommon for regional 
accreditors to find that there is not sufficient evidence of quality to 
allow certain institutions to proceed toward accreditation, and 
accordingly, these institutions are denied access to Federal aid. ACE 
recently convened a commission on the future of accreditation and 
issued a report along with a series of recommendations to strengthen 
and reinforce the value of this system, which can be found here: http:/
/www.acenet.edu/news-room/Documents/Accreditation-TaskForce-revised-
070512.pdf.
                           senator whitehouse
    Question 1. Can you provide reference to what you believe are the 
top two or three studies on innovation in higher education, especially 
those that compare higher education to other industries?
    Answer 1. According to my research colleagues at ACE, there is 
little in the way of studies that comprehensively examine the subject 
of innovation across the entire American system of higher education, 
and/or compare those innovations to other industries. This is due, in 
part, to the fact that innovation is occurring along a number of 
dimensions. For example, higher education has embraced innovations in 
learning and delivery modalities; completion; reduction of time to 
degree; assessment of prior learning; student learning outcomes; cost 
reduction; and so on. There has been a great deal of transformation and 
innovation happening at college campuses nationwide in the last decade 
and I expect it is a trend that will accelerate. Attached in Appendix A 
is a sample of some of the many innovative models occurring across 
campuses.

    Question 2. Are you aware of any estimates of what the overall cost 
is, including government agency budgets and school compliance costs, to 
run the Triad system of oversight? How has its effectiveness been 
measured in any formal way?
    Answer 2. While the Triad has served our higher education system 
well, like any properly functioning oversight system, it requires an 
investment of resources. I have not seen research quantifying the costs 
of all three parts of the Triad, but some estimate that conservatively, 
it would run in the tens or hundreds of billions of dollars annually. 
There are the costs of the Department of Education's (ED) oversight 
activities, the costs incurred by institutions for complying with 
Federal and State regulatory requirements, and costs to States 
associated with performing their authorization and consumer protection 
functions. Preparing for an accreditation review can top $1 million for 
some institutions. While regional accreditation commissions operate on 
lean budgets and staffs, this is a costly endeavor supported largely by 
member dues. In addition, regional accreditation relies on substantial 
in-kind contributions from teams of volunteers who bring years of 
experience and expertise to the institutional review process. Building 
an entirely new, and yet comparable, quality assurance system from the 
ground up would require a massive infusion of money--and it is unlikely 
that an alternative source could be found to provide the required 
investment in resources. The substantial cost required to create and 
sustain a regional accreditation commission is one reason why there are 
only seven regional accrediting bodies in existence today. Finally, 
accreditors incur costs associated with the recognition process at the 
National Advisory Committee on Institutional Quality and Integrity, a 
process which accreditors report has become increasingly time-consuming 
and burdensome. For more information, please see the report of ACE's 
National Task Force on Institutional Accreditation, which provides 
recommendations for how the effectiveness of the system can be 
strengthened and improved. It is available at http://www.acenet.edu/
news-room/Documents/Accreditation-Task
Force-revised-070512.pdf.
                                 ______
                                 
        Appendix A: Examples of Innovative Practices on Campuses
           multi-state community college ``win-win'' project
    Over the past 3 years, 64 community colleges and 4-year 
institutions in nine States (FL, LA, MI, MS, NY, OH, OR, VA and WI) 
joined the national project ``Win-Win'' to identify former students who 
are ``academically short'' of an associate's degree by no more than 9 
to 12 credits and work to bring them back to complete the degree. The 
institutions identified a pool of 41,710 students who could benefit 
from the project and conducted degree audits for each student, showing 
them an individualized path toward completion. If similar efforts were 
applied across all public institutions, the Win-Win project estimates 
there would be a roughly 15 percent one-time increase in the number of 
associate's degrees awarded nationally.
              georgia tech online master's degree program
    Georgia Institute of Technology (Georgia Tech) is partnering with 
Udacity and AT&T to offer an unprecedented kind of online master's 
program in computer science beginning January 2014. The online courses 
will be free and open to anyone, just like MOOCs, but students wanting 
an official master's degree will have access to teaching assistants and 
have their assignments graded. They will need to go through the 
admission process and pay tuition of $134 per credit, compared with the 
normal rates at Georgia Tech of $472 per credit for in-state students 
and $1,139 per credit for out-of-state students. Enrolling in the 
program does not require travel to campus, providing further savings 
for students on commuting and/or room and board.
               enhanced student support services/outcomes
    Austin Peay State University (TN) created a ``Degree Compass 
System,'' which uses predictive analytics techniques based on historic 
grade and enrollment data to make recommendations to students about the 
courses that they need for their chosen program, and ranks the courses 
according to their projected grades. In addition, the program can 
predict which major a student will find the most success in.
                       remedial education reform
    Two instructors at Los Medanos College (CA) set out to improve 
remedial math education at the college and help students successfully 
complete a college-level math course. The accelerated algebra course, 
called ``Path2Stats,'' is a single, six-unit course that students can 
complete to move directly to transfer-level, credit-bearing statistics. 
An alternative to the three- to four-semester remedial pipeline, it 
includes some intermediate algebra, but leaves out the nonessential 
parts for students to succeed in college-level statistics. In recent 
offerings, students who enrolled in Path2Stats were more than four 
times as likely to complete college-level math as their peers in 
traditional remedial sequences.
         washington state community colleges' ``i-best'' model
    The 34 community colleges in the State of Washington are 
implementing the Integrated Basic Education and Skills (``I-BEST'') 
model, where instructors and professional technical faculty jointly 
design and teach college-level occupational classes that incorporate 
basic-skills components. This model allows basic skills-level students 
to take college level work, and receive college credit, while at the 
same time, learn the basic skills they need to move forward with their 
postsecondary education. More than 3,000 students are enrolled in I-
BEST programs each year. I-BEST students have been found to be three 
times more likely to earn college credits, nine times more likely to 
earn a workforce credential, employed at double the hours per week (35 
hours versus 15 hours), and earning an average of $2,310 more per year 
than similar adults who did not receive the training. The I-BEST model 
is being adopted in 20 other States.
                 three-year bachelor's degree programs
    Manchester University, (IN), Franklin & Marshall College (PA), 
Hartwick College (NY), and Southern New Hampshire University are among 
a number of schools that have experimented with 3-year bachelor degree 
programs. These programs typically combine more intensive schedules in 
regular semesters combined with additional coursework in summer and/or 
winter sessions. The savings in tuition, fees, and room and board for 
students in these programs can be substantial: for example, in the case 
of Manchester University, a student on the 3-year program can save 
approximately $25,000. A 3-year degree program is a viable option for 
students who can commit to a major early in their undergraduate career. 
Institutions often prioritize course registration for such students to 
help them stay on the 3-year track, and provide additional academic and 
financial aid advising.
                            course redesign
    This is the process of redesigning entire courses (rather than 
individual classes or sections) to achieve better learning outcomes at 
a lower cost by taking advantage of the capabilities of information 
technology. Led by the National Center for Academic Transformation, the 
ongoing redesign projects have impacted 159 institutions nationwide 
since 1999. Of the 156 completed projects, 72 percent improved student 
learning outcomes and the instructional costs have been reduced by 34 
percent overall.
  Response by Marshall A. Hill, Ph.D. to Questions of Senator Murray 
                         and Senator Whitehouse
                             senator murray
    Question 1. In the recent years we have seen many instances when 
students, especially veterans, have used their Federal financial aid to 
attend a higher institution of their choice. Yet they graduate with a 
degree that does not translate into a career or a job that provides a 
livable wage. What changes to the accreditation process would you 
recommend to ensure our students and veterans are receiving a quality 
degree?
    Answer 1. Big question, with no big, single answer. First, matching 
education and training with available jobs is challenging, due to many 
factors: rapidly changing labor needs, impact of technology, general 
economic trends, etc. Second, students often choose what they want to 
study without thinking much about how they will make their added 
knowledge and skills generate a living wage.
    Personally, I believe the best approach is to ensure that graduates 
are flexible--including the graduates of relatively short-term, job-
focused training programs. To me, that means requiring students to take 
a curriculum that includes rigorous general education and yields good 
reading, math, and communication skills. Accreditation needs to 
continue to insist on that.
    Institutions can do a lot to keep their academic programs up to 
date: advisory committees, judicious use of professionals working in 
the field as adjunct faculty, etc. Accreditors can help ensure that 
institutions do those things.
    The U.S. Department's much-maligned ``gainful employment'' rules 
touch on this issue as well. I think they need to be strengthened.

    Question 2. Is there anything in the accreditation process that 
keeps bad actors from getting access to Federal student aid programs?
    Answer 2. Yes, but I think that accreditation standards in general 
could be strengthened, as well as institutional requirements for 
participation in Federal title IV programs.
    The main issue is that accreditation was designed for institutional 
improvement, using the suggestions of respected individuals from peer 
institutions. It's more successful doing that than its newer role of 
enabling access to Federal student financial aid.
    Some problems:

    a. Some accrediting bodies cover too large a gamut of institutions, 
resulting in nebulous standards.
    b. A broader range of meaningful sanctions is needed, by both 
accreditors and the U.S. Department of Education. The ``nuclear 
option'' of loss of accreditation (which effectively means loss of 
access to Federal financial aid, as well) is an institutional ``death 
knell,'' very seldom used.
    c. Troubled institutions need to be reviewed more often than they 
are. And as much as we care about institutions, we should care more 
about the students they serve. Allowing ineffective institutions to 
continue doesn't serve students as they should be served.
    d. The 90/10 rule needs to be changed to include funds provided to 
veterans as part of the 90 percent.
    e. The U.S. Department of Education should revisit the methods it 
uses to measure the financial viability of non-public institutions and 
be more transparent about the results.
                           senator whitehouse
    Question 1. Can you provide reference to what you believe are the 
top two or three studies on innovation in higher education, especially 
those that compare higher education to other industries?
    Answer 1. I have reviewed the response to Senator Whitehouse's 
question provided by my friend and colleague Paul Lingenfelter, and I 
second his suggestions--especially the State Higher Education Finance 
Report (SHEF), provided annually by the State Higher Education 
Executive Officers Association (www.sheeo.org).
    Clayton Christensen has written extensively on innovation in higher 
education, and he includes some comparisons with other industries. See 
especially The Innovative University: Changing the DNA of Higher 
Education from the Inside Out.
    And finally, the work of the Delta Cost Project (http://
www.deltacostproject
.org/)

    Question 2. Are you aware of any estimates of what the overall 
costs is, including government agency budgets and school compliance 
costs, to run the Triad system of oversight? How has its effectiveness 
been measured in any formal way?
    Answer 2. I am not aware of any such estimates. Nor am I aware of 
any formal measures of the effectiveness of our ``triad'' system. Some 
reasons such studies haven't been done: likely difficulty in reaching 
agreement on cost allocations, likely disagreement on how to measure 
``effectiveness'' (against what standards?), and general belief that 
our country would not support a more centralized, Federal oversight 
system (as is common in many developed countries) nor provide financial 
support for higher education without some system of oversight. I 
believe that we need to improve the functioning of all triad partners.

    [Whereupon, at 12:15 p.m., the hearing was adjourned.]

                                  [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
